<html>
<title> - FINANCING HIGHER EDUCATION: EXPLORING CURRENT CHALLENGES AND POTENTIAL ALTERNATIVES</title>
<body><pre>[Senate Hearing 114-131]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-131

                 FINANCING HIGHER EDUCATION: EXPLORING
                    CURRENT CHALLENGES AND POTENTIAL
                              ALTERNATIVES

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

          Printed for the use of the Joint Economic Committee


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-328                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Daniel Coats, Indiana, Chairman      Kevin Brady, Texas, Vice Chairman
Mike Lee, Utah                       Justin Amash, Michigan
Tom Cotton, Arkansas                 Erik Paulsen, Minnesota
Ben Sasse, Nebraska                  Richard L. Hanna, New York
Ted Cruz, Texas                      David Schweikert, Arizona
Bill Cassidy, M.D., Louisiana        Glenn Grothman, Wisconsin
Amy Klobuchar, Minnesota             Carolyn B. Maloney, New York, 
Robert P. Casey, Jr., Pennsylvania       Ranking
Martin Heinrich, New Mexico          John Delaney, Maryland
Gary C. Peters, Michigan             Alma S. Adams, Ph.D., North 
                                         Carolina
                                     Donald S. Beyer, Jr., Virginia

                  Viraj M. Mirani, Executive Director
                 Harry Gural, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Daniel Coats, Chairman, a U.S. Senator from Indiana.........     1
Hon. Carolyn B. Maloney, Ranking Member, a U.S. Representative 
  from New York..................................................     2

                               Witnesses

Hon. Mitchell E. Daniels, Jr., President, Purdue University, West 
  Lafayette, IN..................................................     5
Dr. Andrew P. Kelly, Resident Scholar and Director, Center on 
  Higher Education Reform, American Enterprise Institute, 
  Washington, DC.................................................     7
Mr. Rohit Chopra, Senior Fellow, Center for American Progress, 
  Washington, DC.................................................     9

                       Submissions for the Record

Prepared statement of Hon. Daniel Coats..........................    36
Prepared statement of Hon. Carolyn B. Maloney....................    36
Hon. Mitchell E. Daniels, Jr., President, Purdue University, West 
  Lafayette, IN..................................................    39
Dr. Andrew P. Kelly, Resident Scholar and Director, Center on 
  Higher Education Reform, American Enterprise Institute, 
  Washington, DC.................................................    46
Mr. Rohit Chopra, Senior Fellow, Center for American Progress, 
  Washington, DC.................................................    60
Questions for the Record for Mr. Rohit Chopra and Responses 
  submitted by Representative Maloney............................    70
Questions for the Record for Mr. Rohit Chopra and Responses 
  submitted by Senator Amy Klobuchar.............................    70
Questions for the Record for Hon. Mitchell E. Daniels, Jr. and 
  Responses submitted by Representative Alma S. Adams, Ph.D......    71
Questions for the Record for Dr. Andrew P. Kelly and Responses 
  submitted by Representative Alma S. Adams, Ph.D................    72
Questions for the Record for Mr. Rohit Chopra and Responses 
  submitted by Representative Alma S. Adams, Ph.D................    72

 
                 FINANCING HIGHER EDUCATION: EXPLORING
                    CURRENT CHALLENGES AND POTENTIAL
                              ALTERNATIVES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:10 a.m. in Room 
562 of the Dirksen Senate Office Building, the Honorable Daniel 
Coats, Chairman, presiding.
    Representatives present: Brady, Paulsen, Hanna, Maloney, 
Beyer, and Delaney.
    Senators present: Coats, Lee, Cassidy, Klobuchar, Casey, 
Cotton, Heinrich, and Peters.
    Staff present: Connie Foster, Harry Gural, Colleen Healy, 
Christina King, Kristine Michalson, Viraj Mirani, Brian Neale, 
Thomas Nicholas, Robert O'Quinn, Leslie Phillips, Ansley Rhyne, 
Stephanie Salomon, Aaron Smith, Sue Sweet, and Phoebe Wong.

   OPENING STATEMENT OF HON. DANIEL COATS, CHAIRMAN, A U.S. 
                      SENATOR FROM INDIANA

    Chairman Coats. The Committee will come to order.
    I would like to welcome our witnesses and thank them for 
being here this morning to discuss how we can improve our 
current system of higher education financing. Most of us, if 
not all of us, will agree that the current framework is far 
from ideal.
    From a student's perspective, rising student debt means 
greater difficulty in obtaining financial stability early in 
their careers, impacting important life decisions such as 
buying a house or starting a family. This is particularly true 
in light of the slow economic recovery where lower paying 
entry-level positions create additional pressures for young 
Americans.
    From a taxpayer's perspective, the free flow of federal 
student loan dollars to higher education institutions without 
proper incentives to control costs will continue to lead to 
higher tuition prices charged to students.
    While loans to cover tuition are relatively easy for 
students to obtain, many are not adequately informed as to the 
implications of this debt for their ability to achieve post-
graduation financial success.
    Greater system-wide accountability and transparency are 
needed and our witnesses will be sharing their thoughts with us 
today on how to best achieve these goals.
    I am pleased to have Purdue University President Mitch 
Daniels, former Governor of our State, before us today to talk 
about his several initiatives to control costs, to improve 
financial literacy, and to create value for students attending 
Purdue. President Daniels will be outlining, among other 
incentives, the ``Bet On A Boiler'' Income Share Agreement 
Pilot Program and how Congress can assist similar higher 
education financing reforms.
    I am also looking forward to hearing Dr. Kelly's thoughts 
on how our current student loan system distorts the higher 
education market and the role competitive principles can play 
in making higher education more affordable for everyone.
    And finally, we are also pleased to welcome Mr. Chopra, who 
will outline the need for proper safeguards as Congress 
considers alternatives to the current higher education 
financing arrangement.
    With that, I look forward to discussing these issues in 
more depth with our witnesses today, and now want to recognize 
Ranking Member Maloney for her opening statement.
    [The prepared statement of Chairman Coats appears in the 
Submissions for the Record on page 36.]

OPENING STATEMENT OF HON. CAROLYN B. MALONEY, RANKING MEMBER, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Representative Maloney. Well thank you, Chairman Coats, for 
calling this hearing today, and welcome to all of the 
witnesses.
    Rapidly growing student loan debt is a significant 
challenge facing our country. Student loan debt grew steadily 
through the Recession, more than doubling from the start of the 
Recession in 2007 to today, and is now close to $1.3 trillion.
    Student loan debt is now almost twice the size of credit 
card debt, which is a staggering statistic. More than 40 
million people have, on average, more than $27,000 in debt. The 
recent explosion in student debt risks the economic security of 
Americans and threatens our economic growth. As debt levels 
increase, young people are forced to delay buying a car, 
purchasing a home, starting a business, and saving for 
retirement. And some end up paying back their loans well into 
their 30s, 40s, and 50s. Now how in the world did we get to 
this burden on our young people?
    Part of the story is that many American families have 
struggled in recent decades and have had trouble saving money 
for their children's college education, and many were hit hard 
by the recent Recession--the most severe economic crisis since 
the Great Depression.
    When parents have less savings, students are forced to 
borrow more, substantially more. In fact, borrowing has gone up 
sharply in recent years with the average debt at a four-year 
public institution, climbing from $21,000 in 2006 and 2007, to 
over $25,000 in tuition in 2012 and 2013.
    Another critical part of the story is that tuition has 
risen dramatically especially at public colleges and 
universities, which educate the vast majority of our students. 
States have also been hit hard by the Recession, and in 
response many have slashed funding for higher education.
    Median state funding per student, for example, fell by 
almost one-fourth from 2003 to 2012. Cuts in state funding for 
higher education forced public universities to charge more. As 
a result, this forces students and their parents--they have to 
pay more. And this means that students have to borrow more 
money to go to college.
    With a declining state investment, tuition increases have 
far outpaced inflation since the 1980s. After adjusting for 
inflation, tuition and fees at a public four-year university 
more than tripled in the past 30 years.
    The Bush-era Recession increased the overall amount owed by 
students in another way. As job opportunities shrank, more and 
more young people opted to enroll in school and they had to 
take out loans to pay for it.
    The recent Recession also accelerated the loss of many 
higher paying jobs that did not require a college degree, 
further increasing the demand for college or other post-
secondary education.
    For-profit institutions, in particular, saw their 
enrollments surge, quadrupling between 2000 and 2011. A new 
report finds that 75 percent of the increase in student loan 
defaults between 2004 and 2011 results from the increase in 
borrowers at for-profit institutions.
    Student debt is a big problem. And how do our Republican 
colleagues suggest that we respond to this problem? By 
restricting the availability of federal student loans and by 
expanding the private student loan market.
    As recent history has shown us, private student loans pose 
significant risk to borrowers. These loans lack--these loans 
often lack consumer protections. They typically carry higher 
interest rates, some greater than 18 percent.
    Many borrowers have been forced into default when lenders 
would not renegotiate, or negotiate viable repayment plans, 
income-based repayment, and extended loan terms. These plans, 
which are available with federal loans-typically are not 
available with private student loans. And there are many, many 
examples of private lenders really preying on student 
borrowers.
    Defaults can affect employment background checks and cause 
lasting damage to a person's credit and their future ability in 
their professions. There is probably broad agreement in this 
room about the need to continue to clean up the abuses in the 
student loan industry. It has been the Wild West with providers 
marketing their loans to students desperate for financing 
through every conceivable channel: Pandora, YouTube, on-campus, 
off-campus, and in many different ways.
    As we consider new private options for financing a college 
education, we must make absolutely sure we have strong 
safeguards in place to prevent private lenders from using any 
type of predatory practices to take advantage of students.
    Today we will discuss a new private lending mechanism--
Income Share Agreements--that could offer some students an 
alternative way to finance their college education.
    I would like to hear from our witnesses what they have to 
say about this issue. I would also like to know specifically 
how they would protect students from any predatory practices 
that have been a part of the existing private student loan 
market.
    Rather than look to the private sector to magically solve 
the student debt problem, we should strengthen public support 
for higher education. It is important to remember that an 
educated workforce is a public good, and thus without 
government involvement we would under-invest in education.
    There are four steps that we can take right now.
    First, we should make tuition free for students at 
community college. Students would then be able to build their 
skills and perhaps obtain an associates degree without taking 
on huge debt.
    Second, states need to partner with the Federal Government 
to reinvest in higher education, and to begin to reverse the 
years of budget cuts at the state level.
    Third, at the Federal level we should increase investment 
in Pell Grants to give low-income students a real shot at a 
college education. Despite recent increases, Pell Grants now 
cover just one-third of the cost of going to a public 
university. Finally, we need to reform the system so that 
universities and colleges have some ``skin in the game,'' some 
consequences when a student is unable to pay back a loan. And 
colleges should be rewarded when a student does succeed.
    Before we take the advice of my Republican colleagues and 
scale back federal student loans and increase private lending 
to students, let's take a minute to remember how much students 
benefit from federal loans: Much lower rates. Better consumer 
protections. Income-based repayment. Extended loan terms.
    College has been a gateway to opportunity for generations 
in our country, but for too many Americans as the price of 
college rockets up, the dream of an affordable college 
education slips away. Our goal should be college education that 
is more accessible and more affordable.
    The Federal Government, state governments, universities, 
colleges, community college, the private sector, and families 
all have a role to play. I look forward to our discussion 
today.
    I thank the witnesses for their commitment to this issue. I 
look forward to their testimony. I might say that it's good to 
see a former leader here in Congress. Welcome back, President 
Daniels.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 36.]
    President Daniels. Thank you.
    Chairman Coats. Thank you. Let me introduce our witnesses. 
President Mitchell Daniels is a long-time friend coming from my 
home State of Indiana. He became the 12th president of Purdue 
University in January 2013 at the conclusion of his second term 
as Governor of the State of Indiana. President Daniels also 
comes from a successful career in business, holding numerous 
top management positions. He is a member of the board of 
numerous nonprofit organizations, including the Urban Institute 
and the American Academy of Arts and Sciences Commission on 
Post-Secondary Education.
    Additionally, he serves as co-chair of the Committee for A 
Responsible Federal Budget. Mitchell Daniels earned a 
Bachelor's Degree from the Woodrow Wilson School of Public and 
International Affairs at Princeton University, as well as a Law 
Degree from Georgetown University.
    A warm welcome to you, President Daniels.
    Dr. Andrew Kelly is a Resident Scholar In Education Policy 
Studies and the Director of the Center for Higher Education 
Reform at the American Enterprise Institute where he works on 
higher education policy, innovation in education, financial aid 
reform, and the politics of education policy.
    Dr. Kelly received his Doctorate and Masters Degree in 
Political Science from the University of California at 
Berkeley, and a Bachelor's Degree in History from Dartmouth 
College, and we thank you, Dr. Kelly, for being here today.
    We're going to have to have a cell phone turnoff.
    [Laughter.]
    We're going to get a screen like they have at the movies, 
you know, so if everybody would silence their phones that would 
be helpful.
    Finally, Rohit Chopra, who is a Senior Fellow at the Center 
for American Progress. Previously Mr. Chopra worked to 
establish the Consumer Financial Protection Bureau, and served 
as part of the senior leadership team.
    Mr. Chopra earned his Bachelor's Degree from Harvard 
College and a Master's Degree in Business Administration from 
the Wharton School at the University of Pennsylvania.
    With that, let me turn to President Daniels as the first 
witness, followed by Dr. Kelly, and Mr. Chopra. And I thank the 
witnesses for being here this morning and apologize for being 
late. We had a vote at ten o'clock in the Senate and I was the 
first to vote and the first out of the chamber. So we are doing 
the best we can.
    Representative Maloney. And I have just been called to a 
vote. I will be back.
    Chairman Coats. President Daniels.

 STATEMENT OF HON. MITCHELL E. DANIELS, JR., PRESIDENT, PURDUE 
                 UNIVERSITY, WEST LAFAYETTE, IN

    President Daniels. Thank you, Mr. Chairman (off 
microphone).
    Chairman Coats. Would you press that [button]. Thank you. 
There you go.
    President Daniels. The two thoughtful opening statements 
that we just heard make it plain there is no need to rehash the 
dimension of the problem we are facing, except to affirm that 
it is still getting worse. Last year by close to a billion 
dollars, 7 or 8 percent on top of the astonishing number that 
Ranking Member Maloney reminded us of.
    Our research partners, Purdue's research partners at Gallup 
just yesterday released the second installment of the biggest 
study ever of college graduates and documented the blight on 
young lives that the debt is causing--postponing housing, 
postponing purchase of cars and durable goods, postponing 
starting businesses, postponing having the children this Nation 
is going to need to meet its obligations decades from now.
    That is our principal concern, economic and personal costs. 
It is also of course a fiscal catastrophe, or should I say 
another one. It has overrun its projections in six of every 
seven years by my reckoning, the debt programs that we have 
today, and you saw the biggest write off ever, $22 billion. We 
all know it is just the first of many to come.
    These same people who were indebted, or are indebted to the 
tune of almost $60,000 for public debt that has been run up, 
not for investment in their future but for current consumption, 
and we should not forget that this issue we are discussing here 
today contributes very directly to the buildup of that.
    But we are here to concentrate on the constructive. I have 
three things, among many, that we could talk about: 
transparency and information, very important. Secretary Duncan 
was on the Purdue campus two weeks ago. We commended him and 
thanked him for the new scorecard. It could be improved. It, 
for instance, would help to see data on earnings program by 
program, because averages can be deceiving. But that is a good 
start.
    At Purdue where debt is down $50 million in the last three 
years, or about 23 percent, a major factor has been a four-year 
freeze on tuition. We are halfway through it. But we have found 
that a little information and a little counseling goes a very 
long way in helping young people and their families make better 
decisions at the front end. So things the Federal Government 
can do to encourage that are very important.
    Accountability, which the education system lacks end-to-end 
and everywhere is a factor here, too. I completely agree with 
Congresswoman Maloney's suggestion that colleges share in the 
risk that their graduates will not be able to meet their 
obligations based on the education they received. And you can 
sign Purdue up for one. We're more than willing and find that 
more than appropriate.
    And many of us believe that some new approaches are in 
order. And just to center on the one that we were invited to 
talk about, the so-called ``Income Share Agreements,'' it is 
very important, by the way. They were loosely mentioned a 
minute ago as ``lending.'' They are not lending. That is their 
principal distinctive feature, in my opinion. Think of them as 
equity as opposed to debt. We see them not as a panacea but as 
an important addition to the portfolio, maybe a replacement for 
PLUS and most private loans which I quite agree are the biggest 
locus of the problem we have.
    They shift the risk from the students to the investor--not 
the lender but the investor. They provide limits, and they 
provide some certainty to the obligation that a graduate will 
have. They would know that never more than an agreed-upon 
negotiated, and freely chosen percentage of their future income 
in any given year would go to pay back the investor.
    You want debt-free education? Here it is. So we want to 
thank Congressman Young, Congressman Polis for this bipartisan 
House initiative, and I am very encouraged to hear that it has 
some prospects. It will be necessary, in our opinion, to 
provide clarifications on subjects like state usury laws, and 
tax treatment and, as was mentioned by Ms. Maloney, protections 
for--reasonable protections and boundaries for those who might 
participate.
    I will say there is one thing about the bill that I 
recommend a closer look at. We do not believe--I'm sorry, we 
do--I would believe that, like other equity investments, income 
share agreements should be dischargeable in bankruptcy. As you 
know, student loans are not. It is another way in which they 
are--can fairly be described as indentured servitude. They are 
the most onerous form of debt we have.
    I would suggest changing the bill to indicate that ISAs are 
dischargeable in bankruptcy. But we thank the sponsors, and we 
appreciate the bipartisan nature of the look that has been 
taken.
    [The prepared statement of President Daniels appears in the 
Submissions for the Record on page 39.]
    Chairman Coats. President Daniels, you have not lost your 
touch. You spoke for exactly five minutes.
    [Laughter.]
    You ended at five minutes on the second. I appreciate the 
content of what you said, and the brevity with which you said 
it.
    Dr. Kelly. I am not trying to put too much pressure on you, 
Dr. Kelly, but . . .

    STATEMENT OF DR. ANDREW P. KELLY, RESIDENT SCHOLAR AND 
     DIRECTOR, CENTER ON HIGHER EDUCATION REFORM, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Kelly. Setting a very high standard, as always.
    Good morning, Chairman Coats, Ranking Member Maloney, and 
distinguished Members of the Committee:
    Thank you for the opportunity to testify. My name is Andrew 
Kelly. I am the Director of the Center on Higher Education 
Reform at the American Enterprise Institute. We are a 
nonprofit, nonpartisan public policy research organization, and 
my comments today are my own and do not necessarily reflect the 
views of AEI.
    I am here because the federal approach to financing higher 
education is on an unsustainable path and too often fails to 
help those who need it most. While federal per-pupil aid 
increased 46 percent over the past decade, net prices and out-
of-pocket costs at most institutions have never been higher.
    Simply pouring more money into the system will not solve 
these problems and may make them worse. That is because the 
Federal Student Aid System suffers from four design flaws.
    First, it essentially empowers colleges to capture as much 
federal aid as they can. Aid eligibility is based in part on 
the cost of attendance, which colleges control. In addition, 
colleges use detailed financial information about their 
applicants furnished by the Federal Government to price 
discriminate, often substituting federal grant aid for their 
own institutional resources.
    Second, a lack of clear comparable information on costs and 
quality makes it difficult for consumers to identify the most 
valuable options. Systematic data on student outcomes like 
learning, job placement, and earnings are rare, hindering 
consumers' ability to make prudent borrowing decisions. This 
reduces market pressure on colleges to compete on price and 
quality.
    Third, there is almost no underwriting of federal student 
lending. Any high school graduate can borrow to attend any 
accredited college at almost any price. Federal loans and 
grants provide no signal to students about the value of 
different offerings and allow them to enroll in poorly 
performing schools.
    Fourth, existing policies do not exercise sufficient 
quality assurance. Federal eligibility criteria are far too 
generous, meaning few schools ever lose access to grants and 
loans no matter how poor their outcomes. Continued access to 
aid props up colleges that would never pass a market test.
    In short, the problem is not only that we make so much 
money available in student aid, but that we make so much money 
available with very few strings attached. One potential 
consequence is the Bennett Hypothesis, the notion that 
increases in federal aid cause increases in tuition. Existing 
research on this question is mixed, but most studies find that 
at least some types of colleges raise prices in response to 
federal aid.
    A recent study found that for every dollar in subsidized 
student loans colleges raise tuition prices by about 65 cents. 
It is difficult to identify whether aid causes tuition 
increases, but it certainly seems to relax the incentive to 
keep tuition low.
    The Bennett Hypothesis has helped explain why federal 
investments have not kept tuition low. But the focus on price 
increases ignores a more pressing problem: the failure of 
federal aid to promote higher education quality.
    Aid policy provides colleges with plenty of incentives to 
enroll students but less reason to worry about whether they are 
successful. New college scorecard data suggests that at a 
majority of colleges at least half of the alumni earn no more 
than a high school graduate six years after enrolling. Default 
rates are highest among borrowers with low balances, and even 
inexpensive institutions like community colleges have low 
repayment rates. These patterns indicate that higher 
education's problems go beyond tuition inflation. For far too 
many students, federal aid is providing access in name only. 
With these challenges in mind, there are several reforms that 
would encourage colleges to compete on price and value.
    First, capping PLUS Loans to parents and graduate students 
which allow unlimited borrowing up to the cost of attendance 
seems like a straightforward way to curb tuition inflation.
    Second, federal policy should empower consumers with better 
information about costs and student outcomes. The College 
Scorecard's new earnings data is a start, but the Federal 
Government should expand on this effort to collect and make 
public program-level outcome data.
    Third, policymakers should create two simple accountability 
mechanisms based on loan repayment rates: A performance floor 
that would exclude the worst performing institutions from 
federal aid programs; and a risk-sharing policy that would give 
institutions above that floor greater skin in the game. If all 
colleges were held responsible for a percentage of their 
students' unpaid loans, they would have incentive to contain 
their tuition, maximize rates of student success, and 
reconsider their admission standards.
    Fourth, reform should create space for private financing 
that can inject more market discipline into higher education. 
In theory, private investors could underwrite on the basis of 
program quality and future earnings, driving students toward 
valuable opportunities. Existing private student loans do not 
appear to be forward-looking in this way. More than 90 percent 
of new private loans feature a co-signer. An alternative is an 
Income Share Agreement under which students obtain funding for 
school in exchange for a percentage of their after-school 
income over a set period of time.
    Because an investor's return is directly tied to his 
student's success, ISA providers have incentives to help 
students navigate toward valuable opportunities. There are a 
number of for-profit and nonprofit entities trying to offer 
this option to students, but a lack of legal and regulatory 
clarity has limited the growth of this market.
    Policymakers like Senator Marco Rubio and Representatives 
Todd Young and Jared Polis have introduced bills that would 
provide such clarity and put common sense consumer protections 
in place.
    I appreciate the opportunity to provide testimony and I 
look forward to the discussion.
    [The prepared statement of Dr. Kelly appears in the 
Submissions for the Record on page 46.]
    Chairman Coats. Dr. Kelly, you almost--you were three 
seconds over.
    [Laughter.]
    I think we have set a standard here now.
    Mr. Chopra, you really are under a lot of pressure, but we 
look forward to hearing from you.

   STATEMENT OF MR. ROHIT CHOPRA, SENIOR FELLOW, CENTER FOR 
               AMERICAN PROGRESS, WASHINGTON, DC

    Mr. Chopra. Thank you, Mr. Chairman, and Members of the 
Committee, for having me today.
    I am someone who has always been a big believer in the 
power of competition, whether it is Olympic runners training 
for a big race, or a burger joint looking to be the best in 
town.
    Competition can push us and help us be our best. But like 
many others, I am also someone who believes that competitions 
and markets do not reward the best when competitors cheat 
rather than compete.
    Today I want to talk about our student loan market and the 
need for common sense rules of the road to promote fair 
competition that protect consumers and honest businesses. Now 
we do not have to go very far back in history for an example of 
what happens when businesses cut corners.
    This month marks the seventh anniversary of the collapse of 
Lehman Brothers and the acceleration of the financial crisis. 
Sketchy lenders and mortgage brokers pushed borrowers into 
exotic new products, sometimes using bait-and-switch tactics 
that led to surprises on closing day.
    We did not get the benefits of competition. What we got was 
catastrophe. Families across the country saw their home values 
plummet, their retirement savings crater, and their jobs 
vanish.
    With state budgets squeezed, support for higher education 
slashed and household wealth slipping away, more families could 
not pony up to pay for college, making more and more seek out 
student loans.
    Since the collapse of Lehman, outstanding student debt has 
doubled, with debt-per-borrower far outpacing the growth in 
tuition. While most of our student loan market consists of 
federal student loans, private competition has played a big 
role in the student loan industry, but with mixed results.
    For example, there are upwards of $500 billion in student 
loans originated using private capital still outstanding. Now 
in theory private lenders could have participated in the 
federal loan program and competed on price and service, but it 
turns out it did not work as planned.
    An investigation by the New York AG did not find lenders 
competing, he found them cheating. Lenders gave kickbacks to 
schools, and even transferred company stock to keep financial 
aid personnel.
    By the end of 2007, the eight largest lenders in the 
market, including some of the biggest names in Wall Street, 
signed codes of conduct and many paid millions to settle 
charges for wrongdoing.
    Our private student loan market, the one operating outside 
of the federal program, is not doing much better. Like the 
subprime mortgages that skyrocketed in the boom years, Wall 
Street securitization of private student loans surged, giving 
lenders the ability to sidestep schools and aggressively target 
families without clearly explaining that private student loans 
did not include some of the key protections of federal loans, 
like income-driven repayment plans which would prove to be a 
lifeline for students who graduated in a tough economy.
    Recently regulators have started to crack down on some of 
the worst abuses. The Justice Department fined Sallie Mae and 
Navient millions for ripping off military families.
    The FDIC tacked on even more for their illegal student loan 
servicing practices and violations of anti-discrimination laws. 
And just this summer, the CFPB fined Discover for illegal debt 
collection tactics and for inflating billing statements.
    None of us like the outcome of the game when athletes are 
doping, or when the ref is in cahoots with the bookie to favor 
one competitor over another, and in the marketplace we are all 
better off with sensible, well-tailored rules and a fair 
referee.
    In the student loan market, honest actors and consumers 
will all benefit if we make disclosures clear, ensure that 
servicing and credit reporting are accurate, and free of 
conflicts of interest, and repayment plans in times of distress 
are not gimmicky band-aid solutions.
    That is how competition can help every student reach the 
finish line, instead of being part of a race to the bottom.
    Thank you, and I look forward to your questions and the 
discussion.
    [The prepared statement of Mr. Chopra appears in the 
Submissions for the Record on page 60.]
    Chairman Coats. Dr. Chopra, thank you.
    I will start with just some questions. I will try to adhere 
by my own rules. As a quarterback or point guard looking at the 
play clock, as I get down to zero I will have my staff poke me 
in the back and say time's up.
    President Daniels, Dr. Kelly listed several things here, 
and you did also, relative to responsibilities, accountability, 
transparency, a number of things as we address this. What I 
would like to hear you talk about is what is the responsibility 
of the university relative to these tuition costs, other 
related costs that are rising two, three, four times the rate 
of inflation?
    What is the role of the university in the accountability 
that it must engage in? You suggested a couple of things, and I 
think you have done more from what I understand at Purdue to be 
accountable from the management side of the educational 
institution in getting control of its costs, because ultimately 
that drives up the costs to students and to the parents and 
students that are having to repay these loans.
    President Daniels. Well up until recently, I guess you 
would say that the responsibility was purely an ethical or a 
professional one, and it was not very often honored. Colleges 
raised prices year on year on year because they could. And they 
were certainly wind-assisted by the gusher of federal money. It 
is perfectly well documented now that this has been a driver of 
higher costs and made it easy, far too easy, for those 
increases to happen.
    I think that, belatedly, market pressure has begun to 
assert itself, and none too soon. As I mentioned, at our 
university we froze tuition the last two years. We have pledged 
to keep it there the next two years. Don't know beyond that. It 
cannot go forever, but we take that very seriously, and we are 
aggressively promoting our university on a value basis, quality 
of the education divided by its cost.
    And our partners at Gallup yesterday revealed that among 
those graduating from college in the last few years, there is a 
very big difference in how they value the education they got, 
whether they think it was worth it or not, compared to those 
who graduated 10, and 20, and 30, and 40 years ago.
    So there are signals that universities would be well 
advised, not to mention better stewards of their 
responsibility, if they were more careful about their costs. 
And I think those that are not are going to be taking an 
increasing risk in what could be a shakeout in higher ed 
coming.
    Chairman Coats. In reference to that, there was a Wall 
Street Journal article yesterday about the Gallup Purdue Index. 
I might just quote from that, that the steep decline in the 
perception of whether a degree was worth the cost startled 
Brandon Busteed, Gallup's Executive Director for Education and 
Workforce Development. He said, ``When you look at recent 
graduates with student loans, it really gets ugly really fast. 
If alumni don't feel they're getting their money's worth, we 
risk this tidal wave of demand for higher education crashing 
down.'' That is quite a statement. You, Purdue, participated in 
that effort, and with all our well-intended goals of educating 
our young people for the challenges of, employment challenges 
of the future here, if this persists that certainly puts us in 
an ever more difficult position in terms of that.
    And whether you, President Daniels, or Dr. Kelly, or Mr. 
Chopra want to just quickly comment on that, I have got one 
minute left, I would like to get your response to that.
    Dr. Kelly. Sure. I will just say three things, quickly. 
There are three important trends to keep in mind here.
    Number one, we all know what has happened to tuition 
prices.
    Number two, the labor market outcomes of recent college 
grads have not looked good. And it is not just function of the 
Recession. If you look at wages for the youngest workers with a 
bachelor's degree, they have been on the decline since about 
2000.
    But the third trend is also really important, which is that 
the fortunes of high school graduates have been even worse. 
They have done even worse in the labor market. So people are 
paying more for a degree that is earning them less money, but 
having a degree is more important than ever before because the 
out--the counterfactual is worse. And so we need to keep that 
in mind when we are thinking about debt and whether debt is a 
net negative. The counterfactual of not having the debt is not 
having the degree, which is much worse in many cases.
    Mr. Chopra. I think there is a lot of talk about the 
college wage premium. That is, the difference you earn over 
your life between getting a degree and not. And it is very 
interesting. This is all fully explained not by the increase in 
wages for college graduates but the decline in wages for 
everybody else.
    So what we have is a combination on an inflation-adjusted 
basis of flat or declining wages for college graduates, and 
more and more and more debt. And the combination of those two 
is not really good for the credit capacity of our country in 
terms of formation of small business loans, mortgages, and 
others. So it is both sides we have to look at, the debt and 
the wages.
    Chairman Coats. Thank you. My time has expired. 
Congresswoman Maloney has designated Congressman Beyer as 
ranking member, which entitles you and those of us up here will 
be followed by Vice Chairman Brady and Senator Klobuchar, and 
then we will get the titles out of the way.
    [Laughter.]
    And the rest of you can engage. So, Congressman Beyer, 
you're on.
    Representative Beyer. Thank you, Senator, very much.
    So thank you very much for coming. Senator, Governor 
Daniels, President Daniels, in my prior life as an automobile 
dealer I spent an enormous amount of time arranging loans, 
which very greatly varied, depending on the credit history and 
the credit scores, of the customer who is before us.
    On the ISAs, why wouldn't they only go to the most credit 
worthy, or to the people, that the private investors who have 
an equity stake in this person see to have the greatest 
possible return? What will this mean for--especially if we dial 
back on PLUS, what will this mean for the lower income, or the 
lower expectation student?
    President Daniels. Well we will have to see, Congressman. 
My belief and supposition is that if the market does take off 
and begin to mature, you will see a spectrum of those who have 
the very best prospects, yes, will maybe be the first approach 
for these contracts. They will also be able to negotiate the 
very best terms.
    I still think it could be, at least up to some point, much 
more advantageous than other options like PLUS loans for those 
who might have to commit a higher percentage of their income, 
or for a slightly longer time, but would still get the benefits 
of having shifted the risk in a way that debt does not. And 
having secured some certainty and some limits to that 
percentage of their future wages that would be taken up paying 
for college.
    You know, as I have described it elsewhere, working your 
way through college after college. And those who wound up or 
chose a less remunerative career quite naturally would have a 
different set of terms. It does not mean it would not be better 
for them.
    Representative Beyer. Governor, why the need to have 
exemption from state usury laws?
    President Daniels. Because it is not debt. This is an 
equity investment by every--and by the way, that is why I do 
not think--why I do think it should be dischargeable in 
bankruptcy. But if we are really going to shift the burden and 
shift the risk away from the partner, the student, graduate 
here, then we should treat it in that fashion all the way 
around.
    Now the bill as drafted does have upper limits. I think 
that is just fine. It does have extensive consumer protection. 
I think that is just fine. But I think it would probably 
strangle the plan in the cradle if we let it be subject to 
usury laws, which 50 different flavors which really do not 
apply.
    Representative Beyer. Great. Thank you, Governor.
    Mr. Chopra, in the move away from PLUS loans and their 
relying on the private sector, I am concerned about the many 
things you read that the private sector loans have higher 
interest rates, that they do not have some of the other options 
that the federal borrowers enjoy, income-based repayments, 
flexibility for forbearance, financial hardship deferments. 
That typically federal loans are fixed interest rates; the 
private loans are often floating.
    Is there any reason to think that moving away from the PLUS 
system to the private would make the problem worse?
    Mr. Chopra. Well I think unlike a lot of other consumer 
products, there are really not many consumer protections when 
it comes to these consumer loans that are marketed as private 
student loans.
    In my testimony I mention some of those issues, everything 
from credit reporting, to the treatment of service members, to 
anti-discrimination laws. And I think we will need to think 
about updating that.
    One of the things we learned in the lead up to the 
financial crisis is that regulators failed to exercise decent 
judgment on when the market was spiraling out of control for 
subprime mortgages. Disclosures were not working well. There 
were problems from beginning to end.
    And I think it is good for us to take another look at the 
student loan market, particularly if we are thinking of new 
products entering. I appreciate Governor Daniels' distinction 
that it is equity versus debt, but for a student the difference 
between the products, it is a different financing transaction. 
And I do not want all of them to need a Ph.D. in finance before 
they even enter college.
    Representative Beyer. Great. Thank you.
    And very quickly, I read that a third of all college debt 
is actually post-graduate, mostly law school and medical 
school, and another third of the for-profit colleges, which 
leaves you only a third that are the traditional undergraduate 
college educations. And that most of that is related to the 
increasing number of kids going rather, than the debt per 
person.
    Is that accurate, Dr. Kelly? And are we overstating the 
crisis?
    Dr. Kelly. In terms of the big growth in student debt over 
the past decade that people tend to cite, the aggregate number, 
that is a function of growing enrollments in large part. It is 
also a function of growing enrollments in graduate school.
    Some estimates of graduate school peg it at more like 40 
percent. And I do think that that raises a really important 
point for policymakers as they think about the student debt 
problem writ large. Disaggregating the grad school debt from 
undergrad debt, and the struggles there, I think is really 
important.
    Representative Beyer. Thank you, Doctor. Mr. Chair, I yield 
back.
    Chairman Coats. Thank you.
    Vice Chairman Brady.
    Vice Chairman Brady. Mr. Chair, thank you for calling this 
hearing. Thank you for the witnesses. This is a bipartisan 
issue, and I also appreciate Representative Hanna's nearly 
daily interest in student debt and college financing.
    I had a young man in my office the other day talking about 
health care issues. He is in graduate work in the medical 
profession. He has $600,000 in debt. His fiance is also in 
health care, $400,000 in debt. The reason I cannot remember the 
topic he wanted to talk about is I kept looking at him thinking 
``you've got a million dollars of student debt.''
    And thankfully that is not the case with everyone, but it 
illustrates where we have come. This committee is about the 
economy. We had a tough Recession. The good news is we have had 
many months of job creation. The problem is, it is very low. It 
is like a car that is stuck in first gear at 15 miles an hour.
    The problem is that this is the most disappointing recovery 
in half a century. We are missing about 6 million jobs that 
should be in the economy right now, many of those available for 
college graduates. We are missing an economic hole in America's 
economy about the size of Canada's economy. And for a family of 
four, we are missing about $1,100 a month from our family 
paycheck that ought to be back right now, which is a lot of 
savings for college.
    The challenge is the adults in the workforce is almost at 
what it was seven years ago. So college graduates are having 
trouble finding a job. They have high student loans. They are 
postponing purchases, which also hurts the economy. So today 
how do we tackle this?
    We can go with the stale old ideas you always hear up here, 
which is more federal regulations at state colleges and 
universities. Or encouraging students to borrow more so they 
can go deeper in debt. Or, free everything, which almost always 
comes with a bill later on.
    We are looking for fresh, new, 21st Century solutions. That 
is what this hearing is about. I wanted to ask Governor 
Daniels, one of the keys on financing seems to be much greater 
knowledge about what degree you are pursuing and what income 
that generates later so you can make good decisions.
    That is starting, it seems to me, the doors cracked open at 
the state level but nowhere near what it needs to be from our 
level. What can we do to encourage at the state level that type 
of knowledge for students and parents so, just as we have a 
skills' gap today--you know, jobs versus the skills we need, so 
we do not have that dream gap of what that degree might 
generate versus the loans they might pick up. What advice would 
you have for us?
    President Daniels. First of all, I would not underestimate 
the extent to which today's young people and their families are 
focused on that. Overwhelmingly they tell us, almost, I think 
to an excessive extent, that is why they are going to college. 
That is what they are looking for. What will get me a good job 
at the other end?
    There are other very important aspects of higher education 
that I hope we do not lose sight of. Nobody should think of it 
as vocational school. But there is a real fixation on that now. 
At Purdue University we teach--this is readily available 
information--we teach 11 of the 12 most highly paid degrees, 
careers by most often associated degree. We are, unlike a lot 
of other schools, experiencing a surge of applications, up 15 
percent last year after a record increase the previous year.
    And when we ask why, it is because I think students are 
newly concentrating on the likely benefits of a degree, and 
they are also looking at, you know, at price on the bottom of 
the fraction.
    So the other thing I would say, though, and as Andrew made 
reference, one benefit of adding to the inventory of possible 
financing tools an equity-like tool like we were discussing is 
it would serve as a signaling mechanism back to the 
Congressman's previous question, you bet. Those who would 
invest will bid more aggressively for the degrees and the 
likely careers that they see as strongest in the market.
    Vice Chairman Brady. And it seems to almost dictate, demand 
almost a cost/benefit analysis for a family, or a student 
looking at where they want to head, what they can pay, afford 
to pay, and so all that seems--this is a fascinating solution. 
And your point I think this is not the only solution. It ought 
to be another tool for families and students to finance their 
education.
    President Daniels. That's right. I mean, I favor broad 
reform. It is not the subject of this hearing, but broad reform 
of the student financing scene we have today. Andrew has 
written, and really both have written persuasively on those 
subjects.
    Vice Chairman Brady. All right. Thank you, Mr. Chairman.
    Chairman Coats. We welcome back the Ranking Member in time 
to do your questioning.
    Representative Maloney. Thank you. There seems to be a 
general agreement that tuition increases are driving the 
explosion in student debt, and I would like to understand why 
it is jumping up so much.
    I know, Governor Daniels, that you froze tuition when you 
went to Purdue I believe in 2013, and that is a wonderful thing 
to have done. But I am interested in your perspective on the 
tuition increases prior to your coming over the past decade. 
And tuition and fees for an in-state undergraduate at Purdue 
increased from just over $6,000 in 2004-05 to almost $10,000 in 
2013 and 2014. So that is an increase of almost $4,000 in nine 
years, a 64 percent increase, roughly two-and-a-half times the 
annual rate of inflation during that period.
    Could you give us some perspective? I know that was when 
you were not there, but why did Purdue raise tuition rates so 
dramatically during this period? What were the causes for this 
64 percent increase?
    President Daniels. They wanted to spend more money. They 
did it because they could. I am not being critical. They were--
our university was no different in either the long, in that 
case 36 year history of continuous increases, from almost any 
other you could find. Neither did the go up as much by degree 
as many others did.
    A lot of reasons for that. Separately I have been asked a 
lot of questions about the cost of federal regulations as a 
contributing factor among many others. I will tell you what I 
do not believe it can be attributed to, at least in our case. 
Indiana has been assessed, now retrospectively, as the third 
best State in the country for maintaining its public support of 
higher education.
    Representative Maloney. That's good.
    President Daniels. Tried to send even more money than that, 
but a reluctant legislature didn't agree with a couple of our 
ideas.
    But with only one very modest reduction, we were not one of 
those states that had the big real-dollar cuts in public 
support. So that can't explain it. I think regrettably the 
number one reason was discussed earlier, was the now well-
documented contribution of free and easy federal dollars, 
followed by trends in higher ed in which competition has been 
based too often on nonacademic factors, amenities and so forth.
    Representative Maloney. So it was because the federal loans 
were easy for students to get, and would you say that was the 
contributing----
    President Daniels. I would say that was not the whole 
explanation, but it was a----
    Representative Maloney. But was it state budget cuts?
    President Daniels. In some states I don't doubt that it 
contributed, but the Indiana experience shows that it is not a 
complete explanation, probably not even the--as large an 
explanation as the so-called Bennett Hypothesis which is no 
longer a hypothesis. I think it has pretty much been 
empirically proven. The New York Fed I think is the most recent 
to find validity in that.
    Representative Maloney. So in other words, Purdue was 
taking advantage of students because they had federal student 
loans and it was easy to get, you know?
    President Daniels. Well I think to a much lesser--that's a 
fair statement--to a lesser extent than most other schools I 
can point to, our school remains even at the time that those 
increases went in place, one of the least expensive in our peer 
group. And so I tend not to look back at what was but try to 
look ahead in an era in which I think value for money finally 
will become a decisive factor in higher ed.
    Representative Maloney. Well that is a little discouraging 
that they just used the student federal money just to raise it 
and make it harder for more children to come to school.
    I would like to ask Mr. Chopra, you know, many students you 
read about they are being forced into default because of these 
high loans that they have and it has lasting negative 
consequences for us. What are the main differences in consumer 
protections between federal student loans and private student 
loans?
    What is the contrast between them and any protections that 
are there with federal loans, any predatory practices with 
private loans? Could you give us an overview as this is your 
area of expertise?
    Mr. Chopra. It really is like comparing apples and oranges. 
One of the things that--and you listed some of them earlier--
but one of the ones I really want you to think carefully about 
is the ability to restructure that debt if you happen to 
graduate in a tough economic cycle.
    People who entered college in 2005 during the boom of the 
private student loan market, they graduated in a time that was 
much different, when an economy was not doing well. And so they 
had a tough time of avoiding default because those private 
student loans do not include income-driven repayment and term 
extensions, as you mentioned earlier.
    It is made even worse by securitization structures, where 
the servicer, the bond holder's trustee, they do not talk to 
each other and they cannot get to solutions. And this is not 
just bad for the student; it is also bad for the investors. But 
it is a symptom of very poor design and thinking up front.
    Representative Maloney. My time has expired. Thank you.
    Chairman Coats. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to our witnesses.
    Governor Daniels, unemployment in Minnesota is somewhat 
similar to Indiana. I was just in your state a few months ago, 
and there are some commonalities between Minneapolis and 
Indianapolis besides the ``apolises.'' And you are at 4.6 
percent. We are at 4 percent. And I think one of the things we 
have found is that we are starting to have job openings in 
everything from graduate degrees, four-year degrees, one- and 
two-year degrees. They tend to be more in science and 
technology and the medical areas.
    And I would like to get your perspective, as former 
Governor and a college president, what you think we need to do 
to get students into these areas where we have job openings and 
make sure they are getting the kinds of degrees we need them to 
get.
    President Daniels. I do think the news is spreading. We 
have a very detectable increase in interest, an appreciation by 
parents and young people of the importance of math, and 
science, and the technical education that flows from them.
    And as I mentioned a minute ago, if we are any indicator--
and we are the third most STEM-centric university, public 
university in the country already, and investing to become even 
more so--so at least temporarily, and encouragingly, I think 
there is a growth in appreciation for this. We have got a lot 
of work to do at the K-12 level to have students ready for the 
rigors of today's scientific education.
    I know from talking extensively with the president of the 
University of Minnesota, and we share a concern about--every 
college president will tell you that K-12 improvements are 
absolutely----
    Senator Klobuchar. Right.
    President Daniels [continuing]. Essential.
    Senator Klobuchar. Because they just keep thinking to make 
these degrees more relevant, and with the costs and those kinds 
of things, when you need to make sure that they are training 
the kids in the areas where we have the openings.
    President Daniels. Well as we have been discussing, more 
transparency, and I commended on stage a couple of weeks ago 
Secretary Duncan for the most recent efforts there. We need to 
go further.
    Senator Klobuchar. And how would you go further?
    President Daniels. Well the first phase there shows, for 
instance, average income of graduates of school A versus B 
versus C, and we need to drill down into the specifics. Because 
as you know at any given university there's a wide spectrum of 
career prospects based on what a student decides to study.
    So, and again, one of the virtues I think of a more equity-
like financing option is it would send us a market signal, the 
market would bid differently for the chem-E grad than it might 
for a graduate of a different discipline.
    Senator Klobuchar. Thank you.
    Mr. Chopra, my dad is a graduate of a two-year degree, and 
then went on to get the rest of his degree at the University of 
Minnesota. My sister went to a community college as well. So I 
have some sense of the importance of that. And I think we know 
that by 2020 an estimated 35 percent of job openings will 
require at least a bachelor's degree; 30 percent will require 
some college or an associates degree. So how does this all fit 
with the community colleges? And can you talk about that, the 
cost there, and what can be done to make those degrees more 
desirable since some of the openings we have that I mentioned 
before, whether they are in welding or some kind of trades, are 
one- and two-year degrees.
    Mr. Chopra. Yes, I think this goes hand in hand actually 
with our previous discussion about those who are defaulting 
often are ones who do not complete college and have lower 
balances. And many of them are going to pretty poorly 
performing, often for-profit schools.
    And I think we should think more about how community 
college investments can be a gateway for people to in some ways 
try college, get that first associates degree, without having 
so much debt.
    Senator Klobuchar. Exactly.
    Mr. Chopra. And that allows----
    Senator Klobuchar. And actually getting a degree where they 
can work.
    Mr. Chopra. That's right. And I think, to go on the 
previous discussion, there is not right now a market incentive 
for many schools to produce job--degrees that lead to jobs. We 
have many, particularly in the for-profit sector, where the 
market incentive is to revenue maximize with whatever degrees 
there may be.
    And in Dr. Kelly's testimony you can see that the 
accountability structure is not there in that sector, as well 
as others; that we need to remove some of these low-performing 
schools that are just having people drowning in debt.
    Senator Klobuchar. Okay, let's put them aside for a second. 
I just really want to get at the one- and the two-year degrees 
that are performing, and how we make it easier for kids to go 
to those and incentivize them.
    Mr. Chopra. Well part of that is investing more in those 
degrees. I think too many people actually--a lot of people are 
able to go for free, but a lot of people are not.
    Senator Klobuchar. Okay. Thank you very much.
    Chairman Coats. Congressman Hanna.
    Representative Hanna. Thank you, Chairman.
    I want to just quickly mention, Utica College, which until 
recently was affiliated with Syracuse University in my 
District, has lowered their tuition 43 percent, at a year when 
they have had the largest enrollment and applications in their 
history.
    And it will take them 14 years, at a 3\1/2\ percent 
interest rate, to get back to where they are today. And they 
have done this on their own, so I think that is worth looking 
at. I will give you some information on it.
    The other thing I wanted to mention is Congressman Kilmer 
and I, and along with Orin Hatch, Senator Hatch, have a bill 
that will allow students, or teachers who stay in Title I 
schools with poverty levels below 40 percent, or above 40 
percent of the poverty line, to have a direct cash credit to 
help them fund their college education debt. And in addition to 
that, along with what Ms. Klobuchar was talking about, we also 
have a bill that I want to ask you about in terms of allowing 
people to capitalize their debt as if it were an expense like 
any other business. It's called a STEM Education Opportunity 
Act, something I wrote out of my office, that would allow 
someone, regardless of when they pay off their debt, to write 
off the cost of that--and I'm sure there are a lot more details 
to be added--but throughout the course of their life based on 
when they decided to take it.
    So they would capitalize it as if a business bought a piece 
of equipment. But for the moment, though, I want to ask, we 
know that the implications for this huge amount of debt abroad, 
across the economy, and I want to ask each of you if you have a 
notion of what that means.
    We know people are not buying homes as early. We know that 
people are withholding--not getting married, not having 
children, a whole host of things. And they owe a trillion 
dollars or so.
    President Daniels, would you like to speak about that?
    President Daniels. Well you said it all, Congressman, or 
most of it. I guess I would add, these are very, very real 
problems. As I said earlier, we ought to worry most about the 
damage to the prospects of young lives. But behind that, to the 
near-term effects on the economy. And they are very real. We 
are learning more all the time about postponement of purchases, 
about the postponement of business startups, and so forth.
    But we ought not neglect the fact, you are talking about 
write offs, you know, ultimately we are writing off, and we are 
going to write off, a ton of federal debt. It is all coming 
back to visit--it will come back to visit itself on these very 
same young people.
    So if the average student loan--student indebtedness now is 
$27- to $30,000, they already owe twice that in federal debt 
that has been run up not by them, or not on their behalf, but 
by their elders, us, for current consumption. And that is an 
economic--it is a huge economic problem, the dominant one I 
believe for the future of this country. And this subject we are 
gathered on this morning is now a material contributing factor 
to it.
    Representative Hanna. Have you seen numbers on what 
percentage, or part of a percentage it might be in terms of our 
growth to our economy?
    President Daniels. Yeah, I mean there is a mountain of 
evidence that shows that debt burdens as they grow are a direct 
penalty on growth. And if you ask me to name the single 
dominant problem facing the country now, it is that we are 
staggering along at, as was made mention, at historically low 
growth rates coming out of a recession that deep, and no other 
problem we face is susceptible to a satisfactory solution while 
that is the case.
    And so the debt anchor that we are already carrying, let 
alone the one that is right in front of us, is a very real 
problem for the growth of this country and everything means in 
terms of upward mobility, hopes for low income people, and 
commitment, frankly, to the democratic process, which has 
always produced that hope.
    Representative Hanna. Dr. Kelly.
    Dr. Kelly. I would caution against making too many 
inferences about the effect of debt on the economy from this 
period in particular, just because two trends covary does not 
mean that one necessarily causes the other.
    The best study on how debt affects home ownership finds 
very small effects among student debt on getting a mortgage or 
obtaining a mortgage. That's a longitudinal study by a 
researcher at the University of Wisconsin, as one of the 
authors.
    I will say that part of the problem we have is that the 
composition of who has student debt has actually changed 
dramatically as a function of the Recession. People went back 
to college. People left their jobs and they went back to 
college, lower income people often. And so those people are 
going to be less likely to own homes in the first place, and 
also they are likely to have lower credit scores, and so on.
    So one of the ways to interpret those trends is as part of 
the access story. That is, we invited more people to go back to 
college. People with debt are going to look like they are 
struggling more in the economy.
    Representative Hanna. Thank you. My time has expired.
    Chairman Coats. Thank you. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And thank you, our panel, for your excellent testimony here 
today. President Daniels, I just have a question for you, 
particularly given some of the comments you have made 
particularly about the increases that we saw at Purdue prior to 
your tenure, and Dr. Kelly as well talking about large 
increases in tuition with colleges and universities across the 
country.
    A disturbing trend that I have seen in universities is the 
increased use of adjunct professors as opposed to having full-
time faculty, often tenured faculty who are doing substantial 
research and other types of activities. I think some of the 
statistics I have seen is that roughly 50 percent of 
instructors now in universities across the country are part-
time instructors. And a majority of these folks are not in a 
career somewhere and then teaching part-time, this is actually 
their job and they have to cobble together their teaching at 
several universities, or having many classes, often earning 
very, very low wages.
    And if you look at overall wages for professors, I think 
last year was the first increase of 2 percent, the first one 
above inflation in five years. So it does not seem as if the 
money is going into the classroom, particularly when we have 
this incredible trend to part-time instructors who are living, 
some of them, not much above the poverty level even though they 
have Ph.D.s and substantial education.
    So where is all the tuition increase--where is that money 
going if it is not going into the classroom and going into the 
professors who are actually teaching our students?
    President Daniels. Yes, Senator, I think you have put your 
finger on something very important. I am happy to tell you that 
at Purdue we have very, very few adjunct faculty, a high ratio 
of tenured and tenure track and clinical or research faculty.
    But nationally, I believe you are quite correct. This has 
been the trend, and it simply indicates, and I made quick 
mention earlier that too often in higher ed the terms of 
competition lately have not been academic excellence, and they 
certainly have not been affordability. In fact, quite the 
contrary.
    The terms of trade, oddly enough, were that in the absence 
of other evidence people associated a higher sticker price with 
more quality. And I don't know the Utica situation directly, 
but where we see these dramatic--a few dramatic reductions in 
tuition, they weren't collecting it in the first place. They 
were backdoor discounting through, you know, scholarship 
assistance and so forth.
    But the dollars that were getting collected too often were 
invested or spent on amenities, and creature comforts, and 
things that people who went to college even 10 or 20 years ago 
would not recognize.
    So I think that is all changing. I think the terms of 
competition are, as they were bound to, shifting. And I hope 
they will shift very much in the direction of those schools 
which are maintaining and can prove educational quality and 
academic excellence for the dollars they are charging.
    Senator Peters. Dr. Kelly.
    Dr. Kelly. I think this concept of shifting the terms of 
competition is actually the most crucial insight here as to how 
to right this system. I think this is partly why simply adding 
more money to the system without changing the incentives that 
colleges face and how they compete with one another is not 
going to change a whole lot. It will be sort of gobbled up by 
the system as it always is, and then we will maybe reset the 
clock for a year and be back where we started.
    I think the rise of adjunct instructors really helps to 
crystallize this incentive structure, that colleges are not 
judged on the basis of how much students learn and how well 
they do once they are out in the labor market. Instead, they 
are judged on amenities, and student-faculty ratios, and so on.
    Those things cost money, and hiring adjuncts allows you to 
save, to redistribute some of the money you were spending on 
teaching to do other things.
    Senator Peters. No, I want to push back a little bit. My 
comments, I didn't mean that adjunct is an inferior professor. 
In fact, adjuncts can be highly skilled, very good instructors. 
They just simply do not get paid adequately for their services. 
They are being shortchanged. And so if there is money that a 
university is raising, it is going somewhere else other than 
paying faculty members who are the people who are actually 
educating our students.
    Dr. Kelly. That's right. And, you know, please interpret my 
point to mean that the university is signaling its priorities 
by where its money is going, and it is not necessarily going to 
teaching, often, because they are paying adjuncts less money.
    There is some research as to the difference between adjunct 
faculty and full-time faculty. It tends to find that full-time 
faculty, you know, have higher performing students. I would not 
push that too far. There has been, to my knowledge, no 
randomized controlled trial of that. But I think your point 
remains that simply spending more money, the concern is that it 
will not actually reach the classrooms, that it will go to 
other functions and other things without changing the terms of 
competition.
    Senator Peters. Thank you. I'm out of time.
    Chairman Coats. Thank you, Senator.
    Representative Paulsen.
    Representative Paulsen. Thank you, Mr. Chairman. Thanks for 
calling this hearing, to identify some of the current 
challenges we have in the higher education system. But it is 
also refreshing to talk about some new ideas and some new 
solutions.
    It seems that too often the conversation that we have here 
in Washington focuses on whether or not the student loan 
interest rates should be 4\1/2\ percent, or they should be 5\1/
2\ percent. That is an important conversation to have, but we 
are missing the opportunity really to focus on the real driver 
of student debt. And that is the rising cost of college.
    I think we would all agree that while the difference 
between an interest rate of 4\1/2\ percent or 5\1/2\ percent is 
noticeable, there is a much larger difference between needing 
to borrow $15,000 to complete your college education, or 
borrowing $100,000 to complete that education.
    And with more and more jobs today requiring a college 
degree, it is likely we are going to continue to see more and 
more American students choosing to go to college. And so we 
should be focusing on reigning in college costs.
    And, President Daniels, you have become very well known 
across the country for cutting costs at Purdue, for freezing 
tuition now for four years. Can you talk a little bit more 
about how you have been successful in getting the Purdue 
community on board with trimming costs?
    President Daniels. Thanks, Congressman. First of all, I am 
not particularly impressed with anything we have done so far. I 
think there is much, much more to do, but it is a start. But I 
would not overclaim at all.
    But I like your question because I think it was a central 
one. I would say this. One of the beauties of our campus or any 
campus I know is the wide variety of views on almost every 
subject. It is one of the joys of working at a place like that.
    But if I could identify one thing that I think is a matter 
of consensus on our campus at least, it is that we want our 
doors to remain open, as they have been for 150 years, to 
people of all social and economic backgrounds.
    We are a land grant school. A lot of people do not know it 
because of our name and, frankly, I think a great academic 
record, but we are. And it is very much a core principle for 
us. And so from the beginning we have asked everyone to 
contribute.
    We have a fund, by the way. Many of our faculty, 
administrators, and staff forego raises voluntarily and 
contribute it to a fund which we use to buy down the cost of 
next year's tuition.
    So, yes, we are doing those things which I hope will 
conserve dollars for the real core purpose, which is excellent 
faculty and facilities for them to teach in. But I am happy to 
tell you, and I believe this would be true on most campuses, 
that when people are asked to think about it they very much 
want to work at and teach at places where no-one is denied the 
opportunity based on economics.
    Representative Paulsen. You know, you also talked about 
one-sided accountability. Can you elaborate a little bit more 
on what you mean, and how you can create a system that actually 
focuses on shared accountability among government, 
universities, and students. The NY Federal Reserve study 
showing, every dollar of increase in federal student aid is a 
65 cent increase in tuition. We know that it is the same for 
Pell Grants, 47 cent increase for every dollar that we put in 
the student loans.
    President Daniels. I think it is pretty straightforward. 
You know, I was in the health care business for a long time, 
and the parallels are pretty plain. When someone else is paying 
the bills, or large portions of the bills, the buyer is 
immunized or insulated against the full, at least temporarily 
in the case of student loans, against the sense of value that 
they are acquiring for it.
    So the schools had it going both ways. A lot of free money 
coming in one way. Nobody measuring that value on the other 
end. And now fortunately, and thanks to this committee and 
other leaders here, Secretary Duncan and others, we are 
beginning to see scrutiny of the results, more public 
information about the results, and I hope likewise some sharing 
at least of the risk and accountability on the front end.
    As I said, we for one institution would be willing to step 
up to that.
    Representative Paulsen. Dr. Kelly, maybe you can add a 
little bit on how to have a better accountability system that 
focuses on shared accountability?
    Dr. Kelly. So the problem of the current federal rules 
around financial eligibility that are based on the cohort 
default rate, which is the percentage of your students that 
default after three years--three years after entering 
repayment.
    It is a binary variable. You are either above the measure 
and you are out of the system, or you are just below it and you 
are in with full access to the system. And so that creates 
little incentive for people below that floor to improve.
    There are also lots of ways to appeal the Department's 
decision as to whether to kick you out. The result is that very 
few schools ever lose eligibility, despite horrible outcomes in 
many cases. So one of the things we have proposed is a risk 
sharing system where colleges would be on the hook financially 
for loans--for some percentage of the loans that go unpaid by 
their students.
    It does not have to be a large percentage. In the mortgage 
market they found that risk retention of 3 to 5 percent changes 
behavior. So--and there is a bipartisan push to do this now, 
and I applaud that.
    Representative Paulsen. Thank you. Thank you, Mr. Chairman.
    Chairman Coats. Thank you. Senator Heinrich.
    Senator Heinrich. President Daniels, one of the areas where 
there seems to be some agreement is that shifting the terms of 
competition is really going to be key to beginning to arrest 
some of these unsustainable increases both in terms of tuition 
and in terms of student loan debt.
    In addition to apples to apples kind of comparisons and 
scorecards like you have talked about, do you see other tools 
that can get at that same issue and make sure that we are 
measuring value?
    President Daniels. Yes, sir. In our state, and in a growing 
number of states, at least a portion of state aid is now 
predicated on performance. It is in early stages. These are 
imperfect measurements. They do lead to occasionally some 
anomalous outcomes, but it is the right direction to go, which 
is to say that when some percentage--and I hope it will be a 
growing percentage--of government assistance, state or for that 
matter federal, is based on the value of the product being the 
service being delivered, the graduation rates, the retention 
and progress rates, and maybe one day the success of graduates 
elsewhere, you will have another incentive pushing in the right 
direction.
    Senator Heinrich. Mr. Chopra, I want to get at another 
issue that I think, in the case of New Mexico may not look 
exactly like the rest of the country but which is very 
important to our students. I am very proud of the fact that a 
number of our higher education entities--the University of New 
Mexico, New Mexico State, New Mexico Tech--have actually done a 
very good job of managing their tuition costs. We have not seen 
the kinds, the scale of change and increases that we have seen 
in other places.
    And I have certainly talked to a lot of students who talk 
about the incredible importance, oftentimes first-generation 
students, in Pell Grants and being able to access those 
relatively modest cost institutions that provide a high value.
    It led me in some case to introduce S. 1998, the Middle 
Class Chance Act, which updates Pell Grants to a little over 
$9,000, allow recipients to use those for 15 semesters instead 
of the current 12, and use them year-round.
    Do you have thoughts for some of the traditional financing 
tools and whether, how important they continue to be, 
especially for low income students to get in the door? And in 
particular with first-generation students.
    Mr. Chopra. As we discussed earlier, an entry point of 
community college and using a Pell Grant, many of those 
students are able to go almost for free. And I think more of 
that should occur as long as we are getting good performance 
out of it.
    One of the things that I would encourage you also to think 
further about is how we structure the post-9/11 GI Bill 
benefit. We have a lot of people that are nontraditional who 
have served, and in some ways they are not necessarily getting 
to use those benefits in the most high-value way.
    So, and to echo what others are saying here, you know, 
accountability to ensure that poor performing high-cost schools 
are not grabbing most of the dollars is critical. And part of 
that is rigorous enforcement that if we have standards that 
people are failing, they need to be kicked out and not be able 
to get the benefit, whether it is federal aid or the GI Bill or 
what have you.
    Senator Heinrich. I suspect, certainly in my case and I 
suspect many of my colleagues would love to know your thoughts 
on improving those post-9/11 GI benefits. And I've got a little 
bit of time here, so why don't I ask you quickly, could you 
remind us and elaborate a little more than in your limited 
testimony some of the unique financial pitfalls that our 
Service Members and our Veterans face when trying to finance 
higher education, and some of the abuses that we have seen in 
recent years within that sector of the market?
    Mr. Chopra. Yeah, the Congress funds the DoD Military 
Tuition Assistance Program, as well as the post-9/11 GI Bill 
benefit. There are also specific programs for military spouses, 
as well. And I have been personally troubled at the very 
aggressive recruiting of people with these benefits.
    There is a law, a requirement called ``the 90/10 Rule'' 
which requires certain institutions to get 10 percent of their 
revenues from non-Title IV sources. And so many of these 
service members or veterans are seen as nothing more than a 
dollar sign in a uniform. So I think some of the same 
principles we are talking about with accountability and risk 
sharing we need to think about that more broadly, too, to make 
sure that people are not just enrolling students to get those 
GI Bill benefits, but they are actually succeeding.
    Senator Heinrich. Thank you all for your testimony. It is 
very much appreciated.
    Chairman Coats. Thank you, Senator.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to all of you for being here. It is an honor to have 
you here, and we always benefit from your insight. You know, 
this is an exciting time to be involved in a discussion about 
higher education. I happen to believe we have got the best 
higher education system in the world here in the United States.
    It has challenges, yes, and we have got to confront those, 
but it is an exciting opportunity to be part of this 
discussion. I look at some of the things that are happening in 
this area, and I am encouraged by steps that a lot of people in 
this field are taking, including for instance President Matt 
Holland, the president of Utah Valley University, who recently 
set up a financial services initiative within this University, 
a big school and a rapidly growing school within the State of 
Utah. He set this up for the purpose of providing guidance to 
students, giving them information to make sure that they know 
what they are getting into, the implications, the ramifications 
of their different student financing options.
    And he did this not in response to a high loan balance 
among his graduates. In fact, Utah Valley University has a very 
low loan balance among its graduates, perhaps the lowest in the 
State of Utah. He did this, rather, because he wants to provide 
a valuable service to his students. I appreciate what he is 
doing there and the insight that you have given us today.
    I would like to start with President Daniels. You were 
asked, I believe, a few minutes ago about what kind of 
transparency is offered to students at your university. I 
wanted to ask you, what kind of a burden would it be for 
institutions like yours administratively and financially to 
have to provide information like that, information regarding, 
you know, average debt load per major, average time to graduate 
per major, average starting salary per major, and things like 
that?
    President Daniels. Approximately zero. I mean, these things 
we know or should know. And we do provide it. I was not 
surprised to hear your account of what that one university has 
done. It is very like what we have seen, and some other 
schools. I know our sister school, Indiana University, has had 
good luck, too.
    I said earlier a little counseling, a little financial 
advice goes a very long way, and we have seen a number of 
families realize they either do not need to borrow, or really 
would be wise not to borrow as much as they originally 
intended. So I think it is a responsibility, frankly, not 
particularly a burden, and it is always easier when you do not 
have to do it, but my sense is that any of the things you just 
mentioned we know now and it would not be an expensive or a 
burdensome thing to make certain that every student considering 
financial aid was fully aware.
    Senator Lee. Is there any aspect of existing federal law or 
existing federal regulatory practice that makes it more 
difficult to establish programs like that? In other words, is 
there any change we could make to federal law or federal 
administrative practice that would encourage universities to do 
that sort of thing?
    President Daniels. Yeah, lots of them. As in every other 
realm, yeah, I was part of a hearing a few months ago on this 
very subject, one which I think maybe a previous question 
brought up, very important. We are trying to move to year-round 
education. We are trying to move to progress-at-your-own rate 
education. And it would be really helpful to have some of the 
financial aid instruments modernized to accommodate that.
    Most of them, or all were originally designed for the old 
traditional start in September, finish in May, agrarian 
calendar, which increasingly describes the educational 
experience of a declining minority of our students.
    Mr. Chopra. Senator, if I could add?
    Senator Lee. Yes.
    Mr. Chopra. The counseling piece is a really good 
discussion to have. And it is not just at the front end when 
students are coming in. It is also when they are repaying. That 
is the case when they are outside of the confines of the school 
gates. And that is one of the reasons I think we need to take a 
close look at student loan servicing. These are the companies 
that are hired to collect debt on behalf of the Federal 
Government and other private actors, and they are required to 
provide students options on how they navigate their debt. And 
unfortunately I think we find too many borrowers are being 
rushed off the phone, rather than giving honest and clear 
information. And this just reminds me too much of what we saw 
in the foreclosure crisis where there were options to avoid 
foreclosure that would have been good for investors and good 
for the homeowner, and instead we had businesses cutting 
corners and it hurt us all.
    So we should look at not only in school but after school as 
well. Some people have thought about how housing counselors who 
are now dealing with less or fewer foreclosures, how they might 
play a role in assisting student loan borrowers, as well.
    Senator Lee. Thank you. Thanks for that insight. I see my 
time has expired. Thank you, Mr. Chairman.
    Chairman Coats. Thank you, Senator. Senator Cassidy, you're 
on.
    Senator Cassidy. President Daniels, we have heard a lot of 
testimony that although you say that many of your parents and 
families are very interested in knowing the cost of education 
and the value thereof, to me that just shows you have got a 
bunch of engineering students coming to your school, right? The 
liberal arts person may not be quite as kind of into the 
numbers--it's not like a stereotype--but apparently the data 
shows that, that most students do not pursue that.
    So I am intrigued by your ISA. That would be a clear market 
symbol. But on the other hand, you can imagine that if you move 
beyond philanthropy and loyal alums, and you move into the kind 
of financier, there is going to be some program that says, oh, 
this person had a tiger mom. We're going to bet on this person.
    And this person came from a disadvantaged background from 
this zip code and they are less likely to complete their 
education and go far. You see where I'm going with that. Any 
thoughts about that? Because again this would be a great market 
signal, but I can see you want to have some protections, if you 
will.
    President Daniels. Well, we will only know when we know, 
Senator, but I can imagine in a fully developed market these 
things would, would work themselves out in very interesting 
ways. For instance, I suspect that at least initially, and 
maybe always, the most frequent use of an ISA would be to in 
essence recapitalize a student who maybe started with debt but 
now has shown some real promise. They have progressed a couple 
of years.
    There is a lot of data that shows that those first-
generation students that you talked about, Purdue has built its 
reputation on first-generation and low-income students who went 
out and did great things after achieving a fine education. And 
some of them might look to the market like the very finest of 
prospects, and in essence as I say can convert debt, or a large 
portion of it, to an equity like arrangement.
    Another thing I would say is--and we have not made any 
decisions yet. We are studying a whole variety of options. But 
I think early on you would probably see a blended system in 
which there would be some subsidization by let's say loyal 
alums, or philanthropically minded individuals, of those 
students with less certain prospects.
    Senator Cassidy. Can I interrupt you for a second?
    President Daniels. Please.
    Senator Cassidy. Limited time, so I don't mean to be rude. 
Now it also seems--I have read about the GRAD PLUS Program 
which seems to be somewhat, you know, subject to abuse. Grad 
schools have raised their tuition, and people can never hope to 
get paid back to. So this seems like an ideal thing for kind of 
the grad school component. And I'm just asking your thoughts on 
that.
    President Daniels. I agree completely. And in the written 
testimony I say some pretty direct things about PLUS loans, and 
both of these gentlemen have written about them, and I think 
probably have similar thoughts. But, yes, I think that's the 
way to get rid of the PLUS loan program and I think the ISAs 
could be a partial replacement.
    Senator Cassidy. Let me ask Dr. Kelly. Dr. Kelly, you speak 
about this skin-in-the-game thing, but I have been told by 
people who know far more than I that if you look at those 
schools who have great repayment rates, oftentimes they have 
very few Pell Grant students, if you will, indicative that they 
have a kind of better-off student body to begin with. And, if 
you will, they may even be deliberately avoiding the implicit 
federal obligation to take on all social economic class, et 
cetera, and that you should kind of scale your skin-in-the-game 
by how many Pell Grants or some other kind of marker for what 
you are doing for the lower income. Any thoughts about that?
    Dr. Kelly. Sure. I think it is crucial that any risk-
sharing system acknowledges that tension. The way that we have 
dealt with it in our writing and our proposals is to suggest 
that you couple a risk-sharing system with bonuses for Pell 
Grant graduates.
    Now we don't want to just premise the bonus on enrolling 
Pell Grant students because that is going to lead to just more 
enrollment, rewarding them for enrollment. We want them to be 
successful. That is one way in which you would still maintain 
the incentive for institutions to seek out and enroll Pell 
Grant students, and in fact to sort of hedge some of the risk 
of doing that under the risk-sharing system. I think that gets 
you 90 percent of the way there to sort of--getting into a 
risk-adjusted, risk-sharing where different schools have 
different standards, I think it is a slippery slope.
    Senator Cassidy. Except, let me stop you there.
    Dr. Kelly. Sure.
    Senator Cassidy. Because there are some schools such as 
historically Black colleges and universities who have taken as 
their mission helping those who are disadvantaged and come from 
a background, et cetera, et cetera--you know where I am going 
with that--and then there are others who have a rich tradition 
and frankly take very few Pell Grant students, and many of 
their parents, you know, all the things you look for for a kid 
who is going to do well. Should they really be kind of judged 
on the same scale, if you will?
    You really want some institutions taking that risk don't 
you?
    Dr. Kelly. I think you do. And I think that is why you 
would incentivize them to do so by saying to them if you're 
successful with these students, we are going to----
    Senator Cassidy. Yeah, but I am going to your point where 
you say you would not want to stratify the kind of risk 
assessment. Maybe I misunderstood what you said.
    Dr. Kelly. Yeah, I think that that is a slippery slope 
toward having lower standards, frankly, for institutions that 
enroll low income students. And I think that would be a shame.
    Senator Cassidy. But--well, I am out of time. Thank you.
    Chairman Coats. I can give you 10 seconds, because that is 
a really, really good question.
    Senator Cassidy. Well, I do think that if you have a 
school, a second Ivy League school which has very few Pell 
Grant students, and you compare it to a historically Black 
college and university which is going to have a lot of Pell 
Grant students, to put them on the same scale is unfair to all. 
It really makes one look really good, and the other look pretty 
bad, but their missions are quite different.
    So knowing that it could be a slippery slope where you end 
up with lower standards, at some point do we want to run that 
risk? Because otherwise we don't have a good picture of what 
the demographics of your incoming class, it may not be a great 
education you've just got great demographics.
    Dr. Kelly. I think this is a question about the Federal 
Government's interest as a lender, frankly, and whether it 
wants to lend money to institutions that it knows most people 
do not graduate from----
    Senator Cassidy. No, I didn't say that. You don't have 
standards, so----
    Dr. Kelly. So this is part of the tension here. Is that--if 
we want to take--if we want to take access-oriented 
institutions and make sure they have the incentive to maintain 
their access, then we should subsidize that activity directly 
rather than lend for it.
    Senator Cassidy. Then let me flip it. Someone once told me 
that the original inclusion of private schools in the whole 
student loan program was conditioned upon their commitment to 
taking lower income people, lower income students, but that 
statistically they have not. And that if you take Pell grant as 
a proxy for doing so, they have just not done it.
    And so if you will, there is that flip side, right?
    Dr. Kelly. Sure.
    Senator Cassidy. You have not expanded access in any 
appreciable way, and so therefore should the federal taxpayer 
be subsidizing you? I am the proud graduate of a land grant 
college. I will say that land grant colleges I think kind of 
get to that sweet spot. But I do think that is the other side 
of the tension that you are describing.
    Dr. Kelly. I agree, and I think this is entirely in keeping 
with this notion of changing the terms of the competition. I 
think that we have encouraged elite colleges to become more 
selective, hyper-selective often, and raised their tuition 
prices to signal that they are a higher-quality alternative. 
All of these things depress low income enrollment and low 
income interest in the school because of sticker shock and so 
on. So I think the point you are pointing out, the point you 
are making is well taken.
    Senator Cassidy. Mr. Chopra, I did not mean to ignore you.
    Mr. Chopra. I'll take it, Congressman.
    Chairman Coats. You raised an important question, actually 
because I have a hearing on that subject alone. I appreciate 
that, and appreciate the witnesses.
    Senator Casey, you have been patient, but the last shall 
now--maybe you can get extra time.
    Senator Casey. Mr. Chairman, don't open up that door.
    [Laughter.]
    No, but I thank you for the hearing. We are grateful for 
this opportunity. I want to thank our witnesses for being here.
    Mr. Chopra, I will come to you in a minute not only to make 
up time that Senator Cassidy wanted, but also to probe a little 
more on the state's role here.
    But I want to start with Governor Daniels. Governor, good 
to see you again and appreciate your Pennsylvania roots. Am I 
right? Monongahela?
    President Daniels. That's right.
    Senator Casey. We wish when people are born in Pennsylvania 
they stay, but we lost you so we'll keep claiming you.
    But I wanted to ask you about a program that does not get a 
whole lot of attention, but it is the subject of some work here 
in the Senate this week, the Perkins Loan Program.
    In our State, it amounts to some 40,000 students that 
benefit from Perkins. Across the country, right around 539,000 
students. You know it well, and folks in the room know it well, 
low-interest, fixed-rate loans for students with exceptional 
needs.
    What we are trying to do this week, and it is interesting 
that we've got a bipartisan effort, about 25 co-sponsors to 
extend the program for a year. Four of the co-sponsors are 
Republicans. So we do have a good consensus in the Senate on 
this.
    The concern obviously is that the students that are 
benefiting here are exceptional need, as I mentioned before. 
One quarter of all loan recipients are from families with 
incomes less than $30,000. So not a lot of income.
    It is, as you know, a revolving loan program. And I am 
told--I want to make sure I am right about this--Purdue in the 
2013-2014 academic year issued nearly 3400 Perkins loans? Does 
that sound right?
    President Daniels. I don't know, but it sounds right.
    Senator Casey. And what is your experience with the 
program? And what is your sense of it in terms of the Purdue 
experience?
    President Daniels. Obviously it has played a very important 
role over time. My--I am generally persuaded by the suggestion 
of those more expert--a couple of them are here--that 
ultimately reform here ought to be more in a Perkins-like 
direction, that we ought to have maybe one loan program that 
ought to be means' tested.
    Among the many things we have not talked about this 
morning, the current system subsidizes wealthy families in many 
respects, and a country that is broke, and a program that is 
consistently overrunning even its own projections and causing 
more borrowing, you know, ought not to be in that business.
    So I will defer to those who live in these issues all the 
time, but my sense is that a simplified program, perhaps 
offering a federal loan program, coupled with some other 
vehicles of the kind we have discussed here today, would 
probably wind up looking more like the Perkins Program than the 
other ones that we have today.
    Senator Casey. Interesting. Mr. Chopra, I will move to you 
on that question. I want to raise another question as well 
about the states' role here. But just for a moment on Perkins, 
if you can speak to that?
    Mr. Chopra. I think we need to be concerned particularly 
for loans that are given to low income students that it is 
clearly understood, and that it is simple, it works well with 
the other loans they might have. So it feels like a place where 
broader reform could be needed, and simple extensions might not 
meet the goals you want, but I am happy to follow up with your 
staff further about that.
    Senator Casey. I appreciate that.
    One of the issues that we discussed today, either by way of 
the testimony or questions, was the diminution of state 
investment in public colleges and universities. We are told, if 
I have the data here, we are told that in a recent study by the 
Center on Budget and Policy Priorities, state spending on 
higher education nationwide is down to an average of $1,805 per 
student, which is about a little more than 20 percent.
    We are also told that in 2012, that year per-student 
spending by states reached its lowest level in 25 years.
    Mr. Chopra, I wanted to ask you about that. (A) do you 
think that is a major driver of part of the problem we have? 
And (b) how do we deal with that? What is the best way to deal 
with that?
    Mr. Chopra. Well one of the things that is always a 
challenge is data in this area is so poor, but there is no 
question that state budgets were killed, particularly with the 
downfall of the housing market.
    And so we now see the data showing that the percentage 
paid, that consists of tuition from students as the overall 
budget has increased nationally quite a bit and across most 
states.
    Senator Casey. So student share is up?
    Mr. Chopra. The student share is up. So I think we have to 
start questioning, given that many people are financing that, 
how do we align the incentives of states not to keep 
disinvesting, because someone will have to pay for it in one 
way or the other, either the student through more loans, the 
families through their own savings, or even the Federal 
Government.
    So I think it speaks to a bad trend, and probably many 
states are going to regret some of that. And I think there is 
good work in many states to try and hold their own schools more 
accountable to make sure they are delivering results.
    Senator Casey. Well since I am the only one between here 
and lunch, I will stop there. Thank you, very much.
    Chairman Coats. Well Senator Cotton popped back in. We are 
glad to have you back, Tom.
    Senator Cotton. No lunch for anyone.
    [Laughter.]
    Chairman Coats. You're up.
    Senator Cotton. Thank you all for appearing before us. 
Thank you for taking the time to help inform us on this very 
important topic.
    President Daniels, that sounds nice.
    [Laughter.]
    Many people wish they could have called you that years ago. 
You have been in and around Washington, in addition to being 
the President of Purdue now and a Governor as well, when we 
think about what is driving the student loan crisis, we have 
heard a lot of testimony today about the easy availability of 
debt financing that students may not appreciate the terms of 
repayment, or that may be driving the rate of tuition higher 
according to the Bennett Hypothesis. Some of that is the 
availability of debt financing from relatively low interest 
rates that have been on student loans, in fact capped by 
Members of Congress.
    I mean, in your experience do Members of Congress and 
Senators have the skill sets needed to determine what interest 
rates should be paid on student loans?
    [Laughter.]
    President Daniels. Now, Senator, what kind of a loaded 
question is that?
    [Laughter.]
    I admire the skill set of every Member of Congress. As you 
know, my admiration is boundless. Oh, you know, I guess what 
you are asking is, can we arbitrarily set interest rates which 
therefore amount to subsidies? Are they best determined 
arbitrarily or through some market system? And my answer would 
be the latter, and whatever they can be.
    And we have had a lot of good discussion this morning on 
the ways in which the current system of financing, everything 
you just mentioned, has contributed to distortions in the 
market, and probably misleading signals to students, and has 
certainly contributed very meaningfully to the runup in costs 
which is the root of all this problem.
    So I don't know that I am answering your question about the 
aptitude and capabilities of our Members, but----
    Senator Cotton. That's not a clear answer, but----
    President Daniels. But I would say, you know, it is beyond 
any of our human capabilities to know with certainty what the 
right number is in a setting like that.
    Senator Cotton. I mean, Hayek's main proposition is that no 
matter how smart and capable any person is and how public-
spirited it is, that person will never have all the information 
of millions of people distributed throughout a market.
    President Daniels. Yes.
    Senator Cotton. Dr. Kelly, given the rapid increases as 
we've seen in student debts, and because of a slow economy the 
difficulties so many students are having of the ability to 
repay their loans, do you foresee a kind of student debt crisis 
the way we saw in the mortgage finance sector in 2007-2008?
    Dr. Kelly. I don't. I think they are very different 
scenarios, and I think it is important to remember who is 
actually struggling the most with their debt. And it is not the 
people with the highest balances. The people with the highest 
balances tend to have gone to graduate school and have 
completed a bachelor's degree, and then gone on to graduate 
school. They are doing very well.
    They have low rates of financial hardship most of the time. 
So I think the real crisis here is among people who tried to 
enroll in a program that was going to expand their economic 
opportunity, but without access to information about which 
program was the most valuable, and which degrees were in 
growing fields. I think they often made poor decisions, often 
through no faults of their own, frankly.
    There is downside risk to investing in higher education, 
and that is why we have created robust protections for student 
loan borrowers on the back end, like income-based repayment. I 
think we could change some of the terms of loan forgiveness to 
make them less perverse and potentially curb tuition inflation. 
But I think allowing student loan borrowers to tie their 
payments to their income is a reasonable safeguard against such 
a crisis.
    Mr. Chopra. Senator, if I could add, I don't think it is 
the same type of crisis but we have some serious problems. We 
have 8 million Americans in default, which is going to threaten 
their ability to get on their feet economically. And I am 
worried that we are acting way too slowly.
    One of the reasons we acted quickly in the last crisis is 
because it threatened the sustainability and livelihood of 
large financial institutions, and I don't think students have 
the same kind of political connections. So we need to make sure 
that we are thinking about the long game and not just the 
sanctity of a few.
    Senator Cotton. One alternative means of financing higher 
education that has been discussed here today is Income Sharing 
Agreements, which you piloted at Purdue. I was sponsor of 
legislation last year in the House that would have set up a 
regulatory framework similar to what Congressmen Young and 
Polis have done.
    Do you think that that kind of ISA arrangement should be 
available to all forms of higher education, four-year degree 
institutions and students, but also maybe just a student who 
needs to go back and get a couple of classes to build skills 
for their local economy?
    President Daniels. Instinctively I would say yes. We 
probably ought to walk before we run and see if it works. We 
talked earlier about the fact that it might well start among 
the more secure, or more promising borrowers, but I can see 
mechanisms, and we would like obviously to see mechanisms where 
it was available more widely and possibly everywhere.
    Senator Cotton. Dr. Kelly.
    Dr. Kelly. If I could add, I think one of the virtues of 
creating space for Income Share Agreements is that they could 
finance things that currently do not have access to the federal 
loan program without putting taxpayer dollars at risk, but 
ensuring at the same time that there are back-end protections 
by tying the payments to somebody's income.
    Senator Cotton. Well my time has expired, and I do think I 
am standing between everyone and lunch, so thank you all very 
much for your time here today.
    Chairman Coats. Thank you, Senator.
    I want to thank our witnesses. I think this is one of the 
more instructive, constructive hearings that we have had on 
this Committee, and I appreciate the three of you being here to 
deal with some interesting questions. I think my colleagues are 
not here, but I think I can speak on their behalf, for their 
interest in this.
    Too often we arrive at Committee meetings and the 
obligation of the Chairman and Vice Chairman to be there, that 
is all that is sitting at the dias.
    Obviously our witnesses can understand here there is a 
significant interest in this particular issue, which has major 
ramifications particularly as we are living ever more in the 
global economy. Getting the right flow of talent and skills 
into our economy is critical to the future of the United States 
being competitive in an ever more competitive world.
    The results from the Gallup-Purdue Index ought to give all 
of us pause in terms of how we can provide better value for the 
cost that is being endured by students and their parents. And 
you know this goes beyond just macro numbers.
    It goes to individuals who find themselves deeply in debt, 
living at home, not able to pursue what their parents had 
thought they had paid for, and that is their opportunity to 
have the opportunities that we have had.
    And I was happy that--well, not happy, but I think the 
question relative to the macro issue here of our ever plunging 
into more and more national debt is going to have significant 
consequences not only in our education system, but just about 
everything that we do here.
    So whether it is medical research, or whether it is 
education, or any of a number of other essential issues and 
things that we ought to be engaged in as a Nation is at great 
risk. And we have to keep our focus on that macro issue as well 
as the micro issues, and there is an interaction between the 
two of those.
    So all in all, I think this was a very constructive day. I 
thank you again, and with the fall of the gavel we are 
adjourned.
    (Whereupon, at 11:56 a.m., Wednesday, September 30, 2015, 
the hearing was adjourned.)

                       SUBMISSIONS FOR THE RECORD

    Prepared Statement of Hon. Dan Coats, Chairman, Joint Economic 
                               Committee
    I would like to welcome our witnesses and thank them for being here 
today to discuss how we can improve our current system of higher 
education financing. Most of us, if not all of us, will agree that the 
current framework is far from ideal.
    From a student's perspective, rising student debt means greater 
difficulty in attaining financial stability early in one's career, 
impacting important life decisions such as buying a house or starting a 
family. This is particularly true in light of the slow economic 
recovery, where lower paying entry-level positions create additional 
pressures for young Americans.
    From a taxpayer's perspective, the free flow of federal student 
loan dollars to higher education institutions, without proper 
incentives to control costs, will continue to lead to higher tuition 
prices charged to students. While loans to cover tuition are relatively 
easy for students to obtain, many are not adequately informed as to the 
implications of this debt for their ability to achieve post-graduation 
financial success.
    Greater system-wide accountability and transparency are needed, and 
our witnesses will be sharing their thoughts with us today on how to 
best achieve those goals.
    I am pleased to have Purdue University President Mitch Daniels 
before us today to talk about several of his initiatives to control 
costs, improve financial literacy, and create value for students 
attending Purdue. President Daniels will be outlining for us the ``Bet 
on a Boiler'' Income Share Agreement pilot program and how Congress can 
assist similar higher education financing reforms.
    I also look forward to hearing Dr. Kelly's thoughts on how our 
current student loan system distorts the higher education market and 
the role competitive principles can play in making higher education 
more affordable for everyone.
    We are also pleased to have with us Mr. Chopra, who will outline 
the need for proper safeguards as Congress considers alternatives to 
the current higher education financing arrangement.
    With that, I look forward to discussing these issues in more depth 
with our witnesses today.
                               __________
Prepared Statement of Hon. Carolyn B. Maloney, Ranking Democrat, Joint 
                           Economic Committee
    Chairman Coats, thank you for calling today's hearing.
    Rapidly growing student loan debt is a significant challenge facing 
our country. Student loan debt grew steadily through the recession, 
more than doubling from the start of the recession in 2007 to today, 
and is now close to $1.3 trillion. More than 40 million people have, on 
average, more than $27,000 in debt.
    The recent explosion in student debt risks the economic security of 
young Americans and threatens our economic growth. As debt levels 
increase, young people are forced to delay buying a car, purchasing a 
home, starting a small business and saving for retirement.
    And some end up paying back loans well into their 30s, 40s and even 
50s.
    How did we get here?
    Part of the story is that many American families have struggled in 
recent decades and have had trouble saving money for their children's 
college education. And many were hit hard by the recent recession, the 
most serious economic crisis since the Great Depression.
    When parents have less savings, students are forced to borrow more. 
Substantially more. In fact, borrowing has gone up sharply in recent 
years, with the average debt at a 4-year public institution climbing 
from $21,900 in 2006-07 to $25,600 in 2012-13.
    Another critical part of the story is that tuition has risen 
dramatically, especially at public colleges and universities, which 
educate the vast majority of our students.
    States have also been hit hard by the recession, and in response 
many have slashed funding for higher education. Median state funding 
per student, for example, fell by almost one-fourth from 2003 to 2012.
    Cuts in state funding for higher education force public 
universities to charge more. As a result, this forces students and 
their parents to have to pay more. And this means that students have to 
borrow more money to go to college.
    With declining state investment, tuition increases have far 
outpaced inflation since the 1980s. After adjusting for inflation, 
tuition and fees at a public 4-year university more than TRIPLED in the 
past 30 years.
    The Bush-era recession increased the overall amount owed by 
students in another way. As job opportunities shrank, more and more 
young people opted to enroll in school. And they had to take out loans 
to pay for it.
    The recent recession also accelerated the loss of many higher-
paying jobs that did not require a college degree, further increasing 
the demand for college or other postsecondary education.
    For-profit institutions, in particular, saw their enrollments 
surge--quadrupling between 2000 and 2011. A new report finds that 75 
percent of the increase in student loan defaults between 2004 and 2011 
results from the increase in borrowers at for-profit institutions.
    Yes, student debt is a big problem.
    And how do our Republican colleagues suggest that we respond to 
this problem? By restricting the availability of federal student loans 
and by expanding the private student loan market.
    As recent history has shown us, private student loans pose 
significant risks to borrowers. These loans lack the consumer 
protections of federal loans. They typically carry higher interest 
rates, some greater than 18 percent. And they offer fewer options for 
loan modification.
    Many borrowers have been forced into default when lenders wouldn't 
negotiate viable repayment plans. Income-based repayment and extended 
loan terms--plans that are available with federal loans--typically are 
not available with private student loans.
    And there are many, many examples of private lenders preying on 
student borrowers.
    Private lenders regularly declare borrowers' private student loans 
in default after a co-signer dies or files for bankruptcy, even for 
borrowers who paid their loans on time for years.
    Of course, a default can affect employment background checks and 
cause lasting damage to a person's credit.
    There is probably broad agreement in this room about the need to 
continue to clean up the abuses in the private student loan industry. 
It's been the Wild West, with providers marketing their loans to 
students desperate for financing through every conceivable channel--
Pandora, You Tube, on campus, off campus, at the gym and so on.
    As we consider new private options for financing a college 
education, we must make absolutely sure we have strong safeguards in 
place to prevent private lenders from using predatory practices to take 
advantage of students.
    Today we will discuss a new private lending mechanism--income share 
agreements--that could offer some students an alternative way to 
finance their college education.
    I would like to hear what our witnesses have to say about this 
issue. I would also like to know--specifically--how they would protect 
students from the predatory practices that have been a part of the 
existing private student loan market.
    Rather than look to the private sector to magically solve the 
student debt problem, we should strengthen public support for higher 
education. It's important to remember that an educated workforce is a 
public good and thus without government involvement, we would 
underinvest in education. There are four steps we should take right 
now.
    First, we should make tuition free for students at community 
college. Students would then be able to build their skills, and perhaps 
obtain an associate's degree, without taking on huge debt.
    Second, states need to partner with the Federal Government to 
reinvest in higher education, and to begin to reverse the years of 
divestment at the state level.
    Third, at the federal level, we should increase investments in Pell 
Grants to give low-income students a real shot at a college education. 
Despite recent increases, Pell Grants now cover just one-third the cost 
of going to a public university.
    Finally, we need to reform the system so that universities and 
colleges have some ``skin in the game,'' some consequences, when a 
student is unable to pay back a loan. And colleges should be rewarded 
when a student succeeds.
                               conclusion
    Before we take the advice of my Republican colleagues and scale 
back federal student loans and increase private lending to students, 
let's take a minute to remember how much students benefit from federal 
loans.
    Much lower rates . . . . Better consumer protections . . . .. 
Income-based repayment . . . . Extended loan terms . . . .
    College has been a gateway to opportunity for generations in our 
country. But for too many Americans, as the price of college rockets 
up, the dream of an affordable college education slips away.
    Our goal should be college education that is more accessible and 
more affordable.
    The Federal Government, state governments, universities, colleges, 
community colleges, the private sector and families all have a role to 
play. I look forward to our discussion today and thank the witnesses 
for their testimony.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Questions for the Record for Mr. Rohit Chopra Submitted by Hon. Carolyn 
         B. Maloney, Ranking Member, and Mr. Chopra's Responses
    1. Last year, several private student loan lenders were ordered to 
pay tens of millions of dollars for violating the Servicemembers Civil 
Relief Act. This year, another private lender was fined for harming 
student loan borrowers.
    Going forward, what can we do to deter private lenders from 
exploiting student borrowers? What incentives or disincentives would be 
effective?

    Recent enforcement actions taken against major players in the 
student loan industry are not only bad for borrowers, they are bad for 
the honest actors looking to serve their customers fairly. I am 
particularly concerned that community banks, credit unions, and non-
profit lenders are disadvantaged by the culture of corner-cutting among 
the industry giants.
    One of the most important ways to remedy the marketplace is to 
apply some of the reforms made by Congress to the credit card and 
mortgage markets to the student loan market. For example, explicit 
servicing standards to ensure borrower payments are processed properly 
and servicing transfers run smoothly will be critical.
    We must also explore the role that schools play. After the student 
loan kickback scandal was uncovered, Congress restricted the ability of 
schools to accept gifts and share revenue from private student lenders. 
Congress should consider requiring schools with a preferred lender list 
to warn prospective borrowers about legal violations by student 
lenders. This would provide a strong deterrent for market players to 
engage in illegal conduct.

    2. In the upcoming reauthorization of the Higher Education Act, 
what should Congress do to enhance consumer protections for borrowers 
of private student loans?

    Congress should enact reforms to address the following areas:
        (1) Borrowers in distress: Requiring servicers to assess a 
        borrower in distress for a loan modification; adjusting the 
        treatment of private student loans in bankruptcy proceedings
        (2) Servicing standards: Enacting consistent, privately 
        enforceable servicing practices to ensure adequate customer 
        service
        (3) Credit reporting reform: Requiring lenders and servicers to 
        accurately furnish certain types of information to consumer 
        reporting agencies
        (4) Data and reporting: Establishing public reporting of key 
        origination and performance data to protect against 
        discriminatory practices, similar to the Home Mortgage 
        Disclosure Act; implementing certain data standards to create 
        marketplaces and promote more vigorous competition
        (5) Harmful contract clauses: Eliminating ``gotchas'' in fine 
        print, such as auto-defaults (where a borrower in good standing 
        is put in default when a co-signer dies), universal default, 
        and other clauses
        (6) Servicemembers and veterans: Streamlining the 
        Servicemembers Civil Relief Act to ensure protections are not 
        lost when refinancing
        (7) Disclosures: Implementing disclosures that allow borrowers 
        to understand and compare all types of student loans.
                               __________
    Question for the Record for Mr. Chopra Submitted by Senator Amy 
                  Klobuchar and Mr. Chopra's Response
    Mr. Chopra, in your testimony, you touched on the securitization of 
student loans--that is, when banks or other investors buy up student 
loans, bundle them up into a security and then sell them to other 
investors. I am concerned that a disruption in this market could affect 
the ability of our young people to go to college and get the training 
and education they need to compete in the workforce.

    <bullet>  Can you describe how the securitization of student loans 
works? What happens if someone defaults on their loan?
    <bullet>  What protections are there for students who have loans 
that are bundled?
    <bullet>  What lessons have we learned from the market crisis that 
we could apply to this market?

    Most outstanding student loan asset-backed securities are 
collateralized by government-guaranteed student loans under the Federal 
Family Education Loan (FFEL) program. Fortunately, recent disruptions 
in this market are not threatening the ability of students to access 
new loans, since the Congress discontinued originations under this 
program.
    In a securitization, an issuer typically originates or purchases 
loans which serve as collateral for bonds issued by a trust. Borrower 
payments are sent to a servicer hired by the trustee and ultimately 
flow to bondholders. When a borrower defaults, the servicer will file a 
claim if the loan is guaranteed. In the case of ABS collateralized by 
private student loans, a borrower will typically be pursued by a debt 
collector or attorney after a default.
    There are no explicit protections for borrowers whose loans have 
been securitized. As we saw in the mortgage market, securitization can 
lead to distortions that harm borrowers. For example, servicers and 
trustees may not retain adequate documentation to prove to a borrower 
that they have the requisite legal claim to collect on the loan. In 
addition, a servicer may seek to maximize profits by not adequately 
informing borrowers about loan modification options--instead steering 
them to quick-fix solutions, such as forbearance.
    Policymakers must take steps to ensure that borrowers are protected 
against poor servicer practices, especially where incentives may be 
distorted by securitization. We must also rethink the 2005 changes to 
the treatment of private student loans in bankruptcy, which may be 
inhibiting constructive workouts between borrowers and loan holders. We 
should also enhance the quality of data by asking regulators to collect 
and publish origination and performance information.
                               __________
 Questions for the Record for President Daniels Submitted by Rep. Alma 
           S. Adams, Ph.D., and President Daniels' Responses
    1. Being a graduate of a Historically Black College and University 
(HBCUs), I can personally say that without the opportunity offered to 
me by North Carolina A&T State University I would not be sitting before 
you today, so it's absolutely important that we ensure these 
institutions not only survive, but thrive.
    This is why my colleague, Bradley Byrne and I launched the 
Bipartisan HBCU Caucus earlier this week.
    One of the issues we're exploring is the impact of the rising cost 
of college tuition on often already cash strapped HBCUs.
    To the panel, can you all discuss some policies that may be 
implemented with regard to alternative forms of financing particularly 
available for HBCUs?

    The primary means to make college more affordable should be to rein 
in spending and to encourage universities to operate more efficiently. 
Congress should be careful to avoid policies that make it easier for 
administrators to raise tuition prices.
    After that, we owe it to the current and future students of 
historically black colleges and universities to create alternatives to 
the PLUS and private loans that leave so many students in high debt. 
Income-share agreements, under which a student contracts to pay funders 
a fixed percentage of his or her earnings for an agreed number of years 
after graduation, offer a constructive alternative, both as an option 
for new originations and for refinancing existing debt.
    I am grateful to Rep. Young and Rep. Polis for introducing HR 3432, 
the Student Success Act of 2015, as a bipartisan effort. This 
legislation will make it possible for universities, including HBCUs to 
test whether ISAs can give students a better deal than they now have. 
The legislation is needed because it will provide important protections 
for students and offer clarity for the ISA provider. It's also my hope 
that the final version of the bill will make it clear that ISAs should 
be dischargeable in bankruptcy, which will be an important distinction 
from the current offerings.
    Without this legislation, we will never see ISAs in use at a large 
scale; with it, we have a chance to do something real for students. I 
encourage the Senate to introduce and pass similar legislation to HR 
3432, and to do it quickly. Legislative clarity will open doors for 
universities to explore this in a way that is not currently feasible.

    Follow-Up
    What financing alternatives should be discussed with regards to 
HBCUs when specifically considering student factors such as being low-
income and first generation?

    There is something very American and progressive about ISAs that 
contrasts with the existing alternatives. Consider that with private 
and PLUS loans, access to higher education funding regressively depends 
on family wealth. With an ISA, family credit is irrelevant to one's 
worthiness to get funding. What matters is the future, and an 
individual's promise to work hard, and pursue the American dream.
    Research shows that low-income high school graduates are among the 
most risk adverse student borrowers, causing some to pass up higher 
education all together. ISAs address this need by shifting the risk 
burden off of the student and on to the provider. If the graduate earns 
less than expected, it is the funders who are disappointed. Education 
payments will never be more than the agreed portion of their incomes, 
no matter what life brings, including unemployment, underemployment and 
health issues. This is true ``debt-free'' college.
    Purdue University, like HBCUs, is committed to preventing 
discrimination of any kind. ISAs should be available to students of all 
backgrounds. Unlike other financing tools that often depend on a 
student's family circumstances, such as Parent PLUS and private student 
loans, ISAs are built around the investment students are making in 
their future--not where they came from in the past.
                               __________
Question for the Record for Dr. Andrew Kelly Submitted by Rep. Alma S. 
                Adams, Ph.D., and Dr. Kelly's Responses
    1. Being a graduate of a Historically Black College and University 
(HBCUs), I can personally say that without the opportunity offered to 
me by North Carolina A&T State University I would not be sitting before 
you today, so it's absolutely important that we ensure these 
institutions not only survive, but thrive.
    This is why my colleague, Bradley Byrne and I launched the 
Bipartisan HBCU Caucus earlier this week.
    One of the issues we're exploring is the impact of the rising cost 
of college tuition on often already cash strapped HBCUs.
    To the panel, can you all discuss some policies that may be 
implemented with regard to alternative forms of financing particularly 
available for HBCUs?

    It is important to note that income-share providers need not be 
proft-making entities, but may well be non-profit funds that are 
interested in increasing college access among particular demographic 
groups or at particular institutions. HBCUs seem like a potential 
target for such a non-profit model, where philanthropists could provide 
the seed money to get a fund started, and that fund would then be 
sustained by income-linked payments from alumni. Think about it as a 
revolving fund or ``pay it forward'' arrangement for a particular 
institution.

    Follow-Up
    What financing alternatives should be discussed with regards to 
HBCUs when specifically considering student factors such as being low-
income and first generation?

    In the non-profit revolving fund example laid out above, private 
funders could also work with HBCUs to improve student services and 
linkages to the labor market in ways that maximize student success.
                               __________
   Questions for the Record for Mr. Chopra Submitted by Rep. Alma S. 
                Adams, Ph.D., and Mr. Chopra's Responses
    1. I would like to ask you about Parent PLUS Loans.
    As you know this program underwent some changes in 2011 that 
resulted in students who were previously eligible for these loans being 
denied.
    This greatly affected many students' ability to pay tuition, and 
had a dramatic effect on HBCUs.
    When the problem first surfaced in 2012, 400,000 students 
nationwide, including 28,000 HBCU students were negatively affected by 
the change in PLUS Loan standards.
    Mr. Chopra, do you believe the recent changes to the Parent PLUS 
loan eligibility requirements are enough to fix the problem created by 
the 2011 changes?
    If not, what changes do you believe need to be made to address 
these problems?

    No, I do not believe the changes to the Parent PLUS program will 
ultimately repair the underlying problems faced by many borrowers 
attending Historically Black Colleges and Universities (HBCUs) and 
other institutions that disproportionately serve low-income and first-
generation college attendees.
    While many institutions benefit from sizable endowments built on 
donations from wealthy alumni over many generations (sometimes over 
centuries), most HBCUs and other Minority-Serving Institutions (MSIs) 
do not have these resources.
    While examining loan programs is important, we must also take steps 
to ensure that HBCUs and MSIs have adequate resources to ensure 
graduates and their families do not incur excessive debt. The upcoming 
reauthorization of the Higher Education Act should include an 
examination of a modernized funding model to recognize the unique 
contributions of these institutions.

    2. Being a graduate of a Historically Black College and University 
(HBCUs), I can personally say that without the opportunity offered to 
me by North Carolina A&T State University I would not be sitting before 
you today, so it's absolutely important that we ensure these 
institutions not only survive, but thrive.
    This is why my colleague, Bradley Byrne and I launched the 
Bipartisan HBCU Caucus earlier this week.
    One of the issues we're exploring is the impact of the rising cost 
of college tuition on often already cash strapped HBCUs.
    To the panel, can you all discuss some policies that may be 
implemented with regard to alternative forms of financing particularly 
available for HBCUs?
    Follow-Up
    What financing alternatives should be discussed with regards to 
HBCUs when specifically considering student factors such as being low-
income and first generation?

    As noted in my written testimony, the market for private financing 
products should be free of discrimination. For regulators to ensure 
that creditors are not violating the Equal Credit Opportunity Act, 
Congress and the industry should consider requiring a data reporting 
framework similar to the Home Mortgage Disclosure Act. This will help 
to ensure that creditors are not unfairly denying or charging higher 
prices to students and HBCUs and MSIs.
  

                                  [all]
</pre></body></html>
